<html>
<title> - AN EXAMINATION OF THE UNITED STATES BUREAU OF RECLAMATION'S NORTHWEST AREA WATER SUPPLY PROJECT</title>
<body><pre>[Senate Hearing 111-948]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-948

 AN EXAMINATION OF THE UNITED STATES BUREAU OF RECLAMATION'S NORTHWEST 
                       AREA WATER SUPPLY PROJECT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    AUGUST 11, 2010--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
 64-643 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 RICHARD C. SHELBY, Alabama
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
BYRON L. DORGAN, North Dakota        ROBERT F. BENNETT, Utah
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
RICHARD J. DURBIN, Illinois          SAM BROWNBACK, Kansas
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
MARY L. LANDRIEU, Louisiana          SUSAN COLLINS, Maine
JACK REED, Rhode Island              GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      LISA MURKOWSKI, Alaska
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                BYRON L. DORGAN, North Dakota, Chairman
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
DIANNE FEINSTEIN, California         THAD COCHRAN, Mississippi
TIM JOHNSON, South Dakota            MITCH McCONNELL, Kentucky
MARY L. LANDRIEU, Louisiana          CHRISTOPHER S. BOND, Missouri
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
TOM HARKIN, Iowa                     LAMAR ALEXANDER, Tennessee
JON TESTER, Montana                  GEORGE V. VOINOVICH, Ohio
SHERROD BROWN, Ohio
DANIEL K. INOUYE, Hawaii (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                         Franz Wuerfmannsdobler
                    Carolyn E. Apostolou (Minority)
                         Tyler Owens (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                          Molly Barackman-Eder














                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Byron L. Dorgan.....................     1
Statement of Dennis Breitzman, Dakota Areas Manager, Bureau of 
  Reclamation, Department of the Interior........................     4
Statement of Todd Sando, State Engineer, North Dakota State Water 
  Commission.....................................................     5
    Prepared Statement...........................................     7
Berthold Rates to Reflect Better Quality Water...................    10
NAWS Celebrates Water Delivery to Berthold.......................    10
Kenmare Turns on the Tap for NAWS Water..........................    11
New Water, New Billing Rates.....................................    12
Judge Reviewing NAWS Lawsuit.....................................    12
Now in Compliance for Arsenic Standard...........................    12
Donnybrook and Tolley Area Water Users Now Hooked Up to NAWS.....    13
NAWS Water Flows to Burlington...................................    15
Water Flows West--NAWS Begins Serving West River Residents.......    15
Water Opportunity--Carpio Sees Opportunity for NAWS Water........    16
Carpio-area Residents Need Money to Connect to NAWS..............    16
Statement of Hon. Curt Zimbelman, Mayor, City of Minot, North 
  Dakota.........................................................    17
    Prepared Statement...........................................    19
Progress and Construction of NAWS................................    19
Use of Minot's Water Supply......................................    20
Depletion of the Missouri River System With the Withdrawal for 
  NAWS Water Supply..............................................    20
Statement of Hon. Roger Ness, Mayor, City of Kenmare, North 
  Dakota.........................................................    21
Statement of Dan Schaefer, Manager, All Seasons Water Users 
  District.......................................................    21
    Prepared Statement...........................................    23
Points of Interest...............................................    25
Prepared Statement of Robert Sando, Minot, North Dakota..........    41
Prepared Statement of Kenneth Rogers, Maxbass, North Dakota......    41

 
 AN EXAMINATION OF THE UNITED STATES BUREAU OF RECLAMATION'S NORTHWEST 
                       AREA WATER SUPPLY PROJECT

                              ----------                              


                       WEDNESDAY, AUGUST 11, 2010

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                               Minot, North Dakota.
    The subcommittee met at 2:30 p.m., in the Minot City Hall 
Council Chambers, Minot, North Dakota, Hon. Byron L. Dorgan 
(chairman) presiding.
    Present: Senator Dorgan.


              opening statement of senator byron l. dorgan


    Senator Dorgan. We'll call the hearing to order. I'm 
Senator Byron Dorgan. This is a formal hearing of the Energy 
and Water Appropriations Subcommittee of the U.S. Senate. I'm 
joined by Roger Cockrell who is a principal staffer on that 
subcommittee. Roger does a great job on water issues from Maine 
to California, and he knows all of them. I'm also joined by 
Justin Schardin from my Senate office, who works on water 
issues as well.
    The purpose of this hearing is to have a discussion and 
testimony about the progress of NAWS. The Northwest Area Water 
Supply Project is a very important project; one that I fully 
support and believe will enhance life in this region of North 
Dakota. I have been involved with this project for a long 
while, along with many of you who are in this room, and believe 
that the project, as designed, has merit, and will be 
completed. It should be completed, and will be completed.
    The reason for this hearing is to try to understand when 
that might happen, what the roadblocks are, what we can expect 
as a result of those roadblocks and when the people of this 
region--and the people of our country, who are spending a lot 
of money on this project--can expect to get to the finish line.
    Just a brief history: We know that the State of North 
Dakota accepted a one-half million acre flood in the middle of 
our State that came, and stayed. President Eisenhower was here 
to dedicate the dam that caused the flood, and that flood was 
something we were willing, as a State, to accept. A lot of 
people probably wouldn't say, ``Yeah, give us the flood, we'll 
accept a permanent flood,'' but we did because there was a 
promise attached to that permanent flood. The promise was that, 
``If you allow us to dam up the Missouri River and you create a 
very large permanent flood behind it called a reservoir, we 
will allow you to use that water for beneficial purposes, 
beneficial uses.'' North Dakota had been long left out of the 
process of irrigation opportunities and clean and fresh water 
delivered to people and communities around North Dakota--they 
thought that was a pretty good deal. You have a cost and you 
have a benefit. The cost is the inundation of towns and 
Missouri River bottomland in order to create the flood, and the 
benefit was a whole series of things, including the Garrison 
Diversion Project, and the Regional Rural Water Projects, along 
with other benefits. We fully received the costs of this 
project. We have never fully received the benefits. That's the 
purpose of the discussion today, about one of those benefits; 
the development of a regional water supply project called NAWS.
    Now, NAWS is a project that's been in the works for a long 
while. I was here, along with, perhaps, many in this room, to 
do the groundbreaking and was proud to be a part of that as, 
I'm sure, were all of the others. It was probably the largest 
groundbreaking I've ever been a part of, just because so many 
people have been involved in this project.
    We have a project that is expected, with current design, to 
cost about $217 million to complete. We've spent $82 million on 
this project. Of that, $45 million has been Federal Government 
expenditures, $30 million the city of Minot, and $7 million by 
the State of North Dakota.
    The treatment plant for this project is still at odds, and 
under discussion, and part of the issue facing the courts; 
we've had a couple of legal challenges to the project itself. 
The question is what kind of a treatment plant will be 
necessary? If one style of treatment plant is built, it's 
somewhere in the neighborhood of $18 million, perhaps, $15-$20 
million. If a much different treatment plant were required, it 
could be $90 or $100 million.
    The court filings that have been made by Canada and the 
State of Missouri have contested this project on a number of 
grounds. First, with respect to the State of Missouri, the 
State of Missouri is questioning the consumption of water out 
of the reservoir from this NAWS project. That is the most 
absurd thing I have ever heard. We're talking about 5/100 of 1 
percent of the water in the Missouri River System.
    If the State were a person, it would be hard for a State 
like Missouri to suppress a grin when they file this lawsuit, 
because they would fully understand that there's no merit 
whatsoever. Regrettably, the judge in the case seemed to 
believe there was some merit. It's beyond my comprehension that 
a judge has made that kind of a ruling, but we're now going to 
have to respond to that, which will be easy enough to do. But, 
I'm still disappointed in that court ruling. It is just an 
absurdity to give any credibility at all to that portion of the 
suit.
    The second lawsuit is from Canada. Canada, of course, is 
concerned about water moving from the Missouri River Basin to 
the Hudson Bay drainage basin. Canada always wants to be 
involved, and they want to be concerned about their basin; I 
fully understand that, Canada has a right to be concerned about 
that. We have, however, always and continue today to say to 
Canada that we will not ever do anything to violate the 
Boundary Waters Treaty. That's a fact.
    We have always insisted that what we will be delivering in 
the pipeline that carries Missouri River water to communities 
that need that supply of water will be drinking-quality water. 
So, it seems to me that, in itself, resolves the issue.
    Nonetheless, the Federal judge in the District Court ruled 
that additional environmental studies need to be done, or 
additional work on the environmental studies, need to be done 
and I'm going to ask the Bureau of Reclamation about that at 
this hearing.
    So, having said all of that, a lot of money having been 
spent--let me put up a chart to show you what we have done at 
the Federal level. These are all earmarked funds; by the way, 
I've earmarked all of these monies. You probably noticed when I 
became chairman, right there, of the subcommittee, I've put a 
little more money in. What we've done with that money is to lay 
pipe. We're creating a pipeline, and we're burying pipeline in 
order, some day, to carry Missouri River water. There's no 
Missouri River water in the pipeline that we have built, none. 
The water in the pipeline is Minot water. And, of course, that 
is not a sustainable circumstance.
    So, I wanted to have a public record made today of where 
are we, where are we headed, what are the obstacles, and when 
do we get to the finish line. Where is the finish line and when 
do we get there? People of Minot want to know that, the people 
of the region want to know that, and those of us who are 
engaged with spending the Federal taxpayers' money want to know 
that, as well.
    So, I have a lot of questions today, but prior to that we 
have five witnesses. I know this is a bit Napoleonic in the way 
this is set up with us far away from the crowd, up here, but 
that's the way the room is set up, I guess. And I'm going to 
ask you, if I could, to have the witnesses come to the dais, if 
you would, there, and provide the testimony, following which I 
will ask a series of questions, as will Mr. Cockrell and Justin 
if they have questions.
    Let me begin, if I might, with the Dakotas Area Manager of 
the Bureau of Reclamation, Dennis Breitzman. Mr. Breitzman, 
you've been involved in this for a long, long time, and I want 
to make one final comment before I ask you to testify and 
begin. I very much wish I had had a hearing the last time I was 
here, because we had a roundtable discussion, I think, it was 
now 2 years ago, and we had then an assessment of what we 
thought, where we were headed, what progress was being made 
with the Canadians and this, and that, and the other thing. We 
probably should have had that on the public record, but all we 
have at the moment are distant memories of what was discussed. 
That's one of the reasons I wanted to have a public record 
today, so that we'd have some demarcation of where we are, and 
what the best judgment of all of you is, where we expect to be 
in the future.
    Mr. Breitzman, I've asked you to be here because the 
Federal judge has required additional environmental studies, as 
a result of the ruling of the Federal court. Until we resolve 
these issues, there will not be Missouri water in the pipeline. 
So, I'd like to ask you to testify, if you would, about what is 
happening at the Bureau, what your timeline is, what kind of 
costs are necessary for that work, and then give us your best 
estimate of a finish line. I call you here recognizing this is 
not a Bureau project, per se. As I understand it, it's a State, 
city, Federal project, but the Bureau is involved, and you're 
going to be responsible for the environmental studies.
    Mr. Breitzman, you may proceed.
STATEMENT OF DENNIS BREITZMAN, DAKOTA AREAS MANAGER, 
            BUREAU OF RECLAMATION, DEPARTMENT OF THE 
            INTERIOR
    Mr. Breitzman. Thank you, Senator.
    I am Dennis Breitzman, Manager of the Bureau of Reclamation 
Dakota Area Office, and I'm pleased to have an opportunity to 
provide a brief summary of the Bureau of Reclamation's 
involvement in the NAWS project.
    NAWS is authorized by the Garrison Reformulation Act, 1986, 
and the Dakota Water Resources Act, 2000, and is being funded 
through the Statewide Municipal, Rural and Industrial (MR&I) 
grant program. And, Senator, as you mentioned, that makes 
Reclamation's role unique, at least for Reclamation, in that 
our role is to budget for, and make grant funds available to 
the project. We do provide a level of construction and 
financial oversight, and we have to ensure that all Federal 
laws are being complied with.
    So, typically, our primary role on these grant projects is 
to complete the appropriate environmental compliance, and in 
the instance of NAWS, we're also responsible for compliance 
with the Boundary Waters Treaty.
    This is just a brief summary; a chronology of where we've 
been with the environmental compliance. In the late 1990s, 
Reclamation worked with the State Water Commission to complete 
an environmental assessment of the project. Based on that 
environmental assessment, in 2001, we signed a finding of no 
significant impact. And, in the same year, we received a 
determination from the Secretary of the Interior that the level 
of treatment that was proposed, at that time, was adequate to 
meet the requirements of the Boundary Waters Treaty.
    In 2002, the Province of Manitoba challenged the 
sufficiency of the environmental documents in the U.S. District 
Court, and in 2005, that case was remanded to Reclamation for 
additional environmental analysis. We completed an 
Environmental Impact Statement in 2008, and the focus of that 
EIS was two things: It was potential consequences of a pipeline 
failure, and an expanded discussion of treatment alternatives. 
Those two items were also the focus of the 2005 court order.
    Based on that EIS, we signed a Record of Decision in 2009, 
describing our decision to construct a water-treatment plant 
using chemical disinfection and ultraviolet radiation. This 
plant would be located near the community of Max.
    Manitoba and the State of Missouri immediately filed 
separate legal challenges, stating that the EIS was 
insufficient. In March of this year, the Court issued an order 
directing Reclamation to do additional analyses on two issues: 
The potential cumulative impacts of water withdrawals on the 
Missouri River, and the consequences of the transfer of non-
native biota into the Hudson Bay Basin. Reclamation and the 
State of North Dakota filed separate motions for 
reconsideration of specific parts of that ruling; both motions 
were denied. And the United States has decided not to appeal 
the Court's ruling.
    So, on the advice of our attorneys and after consulting 
with the Department of Justice, State Department, Environmental 
Protection Agency and the State of North Dakota, we're planning 
to prepare a supplement to the Environmental Impact Statement. 
And we believe a Notice of Intent to prepare that document will 
be published this Friday. We've scheduled four public meetings 
during the week of September 13, and this supplemental EIS will 
address the two items of concern identified in the court order, 
but it will also address things brought forward during the 
public scoping process. And, in addition, we're going to do a 
thorough review of the 2001 environmental documents, and the 
2008 EIS, just to look for any flaws or items that might need 
updating.
    We will be establishing a cooperating agency team to assist 
with this supplemental EIS, and anticipate the membership of 
that team to be similar to the one formed in 2006 and 2007 for 
the EIS.
    Our schedule; we are anticipating that we can have a draft 
of this supplemental EIS done by December of 2011. And 
Reclamation remains committed to completion of this document, 
and the successful completion of the NAWS project. And, with 
that, I thank you.
    Senator Dorgan. Mr. Breitzman, thank you very much. I want 
to have all of the witnesses testify and then I have some 
questions.
    Mr. Todd Sando, the newly minted State Engineer of the 
North Dakota Water Commission, but a veteran of the Water 
Commission, I might add. Congratulations to you, Mr. Sando.
STATEMENT OF TODD SANDO, STATE ENGINEER, NORTH DAKOTA 
            STATE WATER COMMISSION
    Mr. Sando. Thank you. My name is Todd Sando. I am the State 
Engineer for North Dakota and we're in charge of building the 
NAWS, Northwest Area Water Supply Project. So, what I want to 
do is give you an update on the construction activities since 
we started construction.
    The Project began back in 2001. And we did the design work, 
and actual construction began in December 2002. And I have a 
map over here that will lay out what we've been doing for 
construction, and how it all works into delivering water to 
Minot and to the rest of the Northwest Region. So, I'm going to 
have Michelle Klose, the project manager, she'll kind of point 
out a few things as I go through it.
    First of all, like I said, we're in the 8th year of 
construction, and you mentioned how we spent, like, $82 
million, so far, on the NAWS Project. And the first thing that 
we worked on is a main transmission like, and that comes from 
Lake Sakakawea and Highway 82 embankment, and travels 45 miles 
north to Minot, and that's all completed. We got that completed 
in the spring of 2008. So, we got the main transmission line 
from Lake Sakakawea all the way to the city of Minot.
    At the same time, building out for the rural water systems 
in some of the communities, and the first segment that we 
worked on was the Berthold Segment. And we came off the water 
treatment plant in Minot and built west. And it consists of 25 
miles of pipeline and has three pump stations and two 
reservoirs. And that was completed in August 2008. So, we're 
delivering water to Berthold.
    And then the next project we worked on was the NAWS All 
Seasons up-end, over by Bottineau. And we provided 13 miles of 
pipeline there from All Seasons water treatment plant near 
Bottineau, and that's delivering water to that part of the 
State.
    And the next segment that we've been working on is the 
Kenmare Segment. And that's continuing from Berthold, and 
that's a 52-mile pipeline. And that consists of one pump 
station, and that was in place December 2009. We're right in 
the middle of adding storage, and there's a million-gallon 
storage reservoir right by Kenmare that they actually filled 
with water, just recently. Today, okay.
    Other projects that we've been working on for the NAWS 
Project; there was a major project that was dealing with the 
High Service Pump Station right within the city of Minot, and 
that was for 18 million gallons per day, High Service Pump 
Station with a 2 million gallon underground storage tank in 
Minot. And we have that completed, and that started operation 
last winter, December 2009.
    And the other components that we've been working on right 
now that we just completed have connections to West River Water 
District and Burlington. In fact, today we just turned the 
water on for Burlington. We opened the valve with the Mayor 
this afternoon, and we'll be serving water to Burlington. So 
that's where we're at with actual construction of the project, 
right now, what's been completed.
    We are working on the Mohall-Sherwood-All Seasons Line, and 
sometime this fall we'll have water to Mohall and Sherwood 
also, and we're looking at having a celebration for Kenmare and 
Sherwood, Mohall and that whole region. We're shooting for 
sometime this fall. So, that's where that's at.
    Our big issue is the injunction that's in place. And what--
the next step for--in our minds--is, we need to get that 
injunction, you know, removed. And that's, you know, standing 
in the way of getting water from Lake Sakakawea to Minot. So, 
we're unable to build our treatment plant to deal with the 
biota. We haven't started on the construction of the intake, 
yet, but we need a control structure and storage reservoir in 
between the lake, too, so you can see it's highlighted in the 
map. And we can leave the map with you, too, so you can have 
that for the record.
    So, like Dennis Breitzman and the Bureau's mentioned, you 
know, there are legal strategies, and we really can't go into 
detail--you know, work through them, but we have an attorney in 
Washington, DC that works for the Water Commission, and we work 
with the Justice Department really closely, and we are trying 
to work out the deal; work it out so we can get through the 
issues that are at hand and hopefully we can have a new EIS. 
This will be the third round of NEPA compliance. We went 
through an EA, went through an EIS and now the supplemental 
EIS, and until that is freed up, that's what we will really be 
working towards.
    A couple of the issues with taking a re-look at the EIS, 
you mentioned about the Missouri River and how much water there 
is and the water that comes through our State. When Garrison 
Diversion was formulated, there were 3.1-million-acre-feet that 
were to be allocated for water projects throughout our State 
for giving up 550,000 acres of land. And, to date, I mean, we 
haven't been delivering hardly any water to our citizens of the 
State, and it's just a small fraction, like you said, of water 
that would be delivered to NAWS and we feel, I mean, depletion, 
like you said, it's so miniscule, it's not even measurable 
downstream. So, we baited these arguments with our downstream 
neighbors and our neighbors in Canada, but I just wanted to 
point out, regarding to depletions, we do have the right to the 
water, we have the right to the natural flows, and we do want 
to put this water to beneficial use.
    So, that's where the project's at right now, and we would 
like to continue building out. One of the things with the 
future funding, we have $2 million through the Bureau of 
Reclamation to do additional studies. There will be additional 
needs for--to build the intake structure. The intake will cost, 
probably, $18 million, so we're looking for money for the 
intake structure.
    Our other goal for next year is Minot Air Force Base; we 
want to build a pipeline to Minot. So we're looking at trying 
to fund that. Minot's been very, very good for the project and 
for the whole region. They've stepped up with $30 million, so 
they've been helping to get the water out to these rural areas, 
and we'd like to continue with that next year. So, we're 
looking at angles to try to keep the project moving and still 
building out next year.
    We do know there are issues with groundwater. As you know, 
you talked about how the interim water is coming from an 
aquifer system. It's coming from the Minot aquifer and the 
Sundry aquifer. And as everyone's aware, the aquifers are being 
mined, and in the last couple of decades, you know, we track it 
very closely, and the water levels are dropping in the aquifer. 
So, we have an interim agreement right now with the city of 
Minot for 10 years, and that was signed in 2008. So, they're 
willing to provide it for 10 years. But they have an opt-out 
clause in it, too, if those aquifers get too low. So, as of 
now, they're willing to supply water to all of the neighboring 
communities, and we do have an agreement in place for 10 years.


                           prepared statement


    And, you also wanted to know about timeline. Based on what 
we're working toward we still, I mean, to build a treatment 
plant, to upgrade the treatment plant in Minot, to build the 
intake and to build the other features, we're still probably 6 
or 7 years away from completion in getting water to the city of 
Minot from Lake Sakakawea.
    So, that's my summary for you.
    [The statement follows:]
                    Prepared Statement of Todd Sando
    It is difficult to fully describe the care taken by the State water 
commission, the NAWS Advisory Committee, the city of Minot, and the 
cities and rural water systems in the region under trying 
circumstances. Because of the ongoing litigation over the project, all 
parties have carefully striven to balance the use of the existing 
ground water supply and continuing development of the project. First, 
and most important, we have encouraged the Federal Government to do 
everything in its control to satisfy the edict of the court so that the 
injunction could be lifted completely. Second, we have cautiously, but 
consistently, sought relief from the court to allow construction to 
continue in a phased approach that allows work to proceed, while the 
supplemental environmental review is completed in an open and fair 
manner and in full compliance with the court's order.
    The support we have received from the Senate Appropriations, Energy 
and Water Development Subcommittee, has been very much appreciated in 
assisting us to address the water needs of this region. We respectfully 
request your continued support for these types of water supply 
projects. The construction funding the last few years has connected 
communities to better water quality. Those living in the communities 
and rural homes and farms have expressed to us their sincere thanks and 
appreciation for water service from the project. I want to take this 
opportunity to thank you on their behalf.
    Even when the court has found elements of the project environmental 
review to be lacking, it also has confirmed what we all know--that the 
project is essential for the public health and safety for northern and 
central North Dakota. The court has allowed construction to continue so 
long as the specific project elements do not foreclose water treatment 
options. The court has also recognized that Reclamation had taken a 
hard look at reasonable in-basin alternatives, and concluded there is a 
need for transferred water from the Missouri River for this project.
    It has been suggested that we should re-engage consultation with 
Manitoba. We are interested in having discussions with Manitoba if 
there is interest from Manitoba in reviewing the current NAWS project 
to address specific concerns to allow a Missouri River water supply to 
this region. We anticipate that the current supplemental NEPA process 
that is underway will provide additional and real opportunities for 
Manitoba and the State to engage in a productive dialogue.
    But we should also be clear: the history of this project reflects 
adaptations to address many of the concerns expressed by Manitoba over 
the control of invasive microscopic biota. In particular, the project 
has advanced from an open canal diversion to a closed pipeline, with 
water disinfected and radiated to kill bacteria and viruses. It would 
be good for all sides to see similar advancement in a resolution. 
However, it must be recognized that the formal consultation process 
with Canada required under the Boundary Waters Act Treaty has been 
completed. Additional discussions over the nature of water treatment 
options can and will take place. The State would support a reasonable 
and affordable resolution that would permit the project to proceed 
without future litigation. That result may or may not be achievable in 
light of the State of Missouri's participation in the case, but we 
remain open to all reasonable options to avoid further court 
involvement.
    The NAWS Project will alleviate serious water quality and water 
quantity problems in the area to be served by the project. These areas 
have been in need of a new source of water to provide good quality 
drinking water not only to improve human health and comply with Federal 
drinking water standards, but also for the positive economic and social 
impacts good water will have on individuals and communities.
    Some of the drinking water sources within the project area pose 
health problems because they contain high levels of sodium, sulfates, 
and chloride. For example, the town of Berthold was the first community 
to receive an interim water supply from Minot through the NAWS 
pipeline--starting in August 2008. Berthold's local water supply had 
Total Dissolved Solids (TDS) at 2300 mg/L, far above the Safe Drinking 
Water Act's secondary TDS standard of 500 mg/L. Berthold was a 
community where people were trucking/hauling in water for their 
drinking water. The city's well water system was used for flushing 
toilets, but not for drinking, not for watering gardens or lawns, and 
not for washing white clothes. The attached articles from the Minot 
Daily News by Jill Schramm, Berthold Rates to Reflect Better Quality 
Water and NAWS Celebrates Water Delivery to Berthold, provides the 
local perspective on the value and need of a new water supply.
    Further, naturally occurring arsenic is present in some area water 
supplies. The arsenic standard for drinking water is a primary standard 
under the Safe Drinking Water Act. The maximum contaminant level for 
arsenic is 0.010 mg/L. Arsenic levels in the drinking water of two 
communities served by NAWS--Kenmare and Upham--violated the Federal 
arsenic standard. Kenmare was facing the situation of investing funding 
in a separate reverse osmosis water treatment plant or seeking an 
interim water service connection through NAWS. Connecting to the NAWS 
Project gave these communities the best opportunity at the time to 
address arsenic. The attached articles from The Kenmare News by 
Caroline Downs, Kenmare Turns on the Tap for NAWS Water and Donnybrook 
and Tolley Area Water Users Now Hooked Up to NAWS, provides the local 
perspective on turning on water service after the Kenmare-Upper Souris 
segment of the pipeline was completed in December 2009. Also attached 
are articles from the Minot Daily News by Jill Schramm, discussing the 
connection of water service to Burlington and West River Water District 
this summer. They are entitled Water Flows West and NAWS Water Flows to 
Burlington.
    Issues still being faced in this area are wells going dry, 
routinely hauling water to local cafes, and difficulties getting home 
loans due to a lack of reliable water is highlighted in the attached 
articles from the Minot Daily News by Jill Schramm, Carpio-area 
Residents Need Money to Connect to NAWS and Carpio sees Opportunity for 
NAWS Water.
    It is very difficult with the water supply needs of this region to 
draw a line of where the connection to an interim supply will end. It 
was precisely this difficult decision that was made with care by the 
State water commission and the city of Minot, in consultation with the 
NAWS Advisory Committee, and the communities and rural water districts 
in the region. Minot and the State water commission agreed in the 
interim water service contract that water supply to meet the current 
average needs up to 771,800 gallons per day in 2010 could be provided 
to specified communities and rural water systems. Any additional water 
needs of those areas would have to be met by blending their lower 
quality water with the NAWS water, which typically would significantly 
degrade the water quality and aesthetics. The contract was reviewed and 
approved by the Minot City Council and the North Dakota State Water 
Commission. The interim supply agreements with each city and rural 
water district was reviewed and approved by their city councils or 
district boards and the North Dakota State Water Commission. The city 
of Minot and the State water commission closely monitor the aquifers 
for both water quality and quantity.
    As the court found, no action is not an option in this case. 
Consistent with that finding the court has permitted and the State has 
requested and vigorously pursued completion of project elements that 
can reasonably provide interim water supply and move closer to project 
completion. The construction contracts have been proceeding to provide 
the interim supply envisioned in these water service contracts. And, 
the construction north of Minot has been limited to the areas that can 
be served through this interim supply contract--until the long term 
supply is available from the lake.
    The groundwater available in Minot has never been a solution for 
the water supply needs of the region. The legislation for construction 
of the Garrison Dam forming Lake Sakakawea, enacted as The Flood 
Control Act of 1944, recognized the need for water supply in the NAWS 
region. Of the options considered at that time, the legislation called 
for the diversion of a water supply from Lake Sakakawea. On September 
25, 1970, Congress passed legislation (84 Stat. 866) for the Sundre 
Pipeline/Minot Extension for the first interim solution, because it was 
recognized the supply from the lake was still being delayed. The 
objective of the authorized Minot Extension, as explained in a 1981 
letter to Honorable Byron Dorgan from the city of Minot, was two fold: 
(1) to provide a supplemental supply from groundwater from the nearby 
Sundre Aquifer to meet immediate needs; and (2) to provide a dependable 
supply of good quality imported Missouri River water for the long-range 
municipal and industrial requirements of the city of Minot. This 
groundwater supply from the Sundre Aquifer has helped Minot for many 
years, and as expected in 1976 when the construction was completed, 
this supply was not going to be adequate for the population growth in 
Minot.
    Every year of delayed construction, specifically on structures like 
the intake, treatment plant, and pump stations, it increases costs, and 
impacts Minot's ability to continue cost-sharing the project for the 
benefit of the region. The cost estimates for construction of the High 
Service Pump Station were increasing over 6 percent each year. With 
construction of that facility completed, the guesswork on how much 
additional dollars would have to be set aside for that facility has 
also ended. In addition, by using this facility now, even without the 
water supply from Lake Sakakawea, benefits are being realized in more 
storage and reduced power costs for both NAWS and the city of Minot.
    The need for additional funding to support the successful 
completion of the project is clear. One year ago, a representative of 
the Bureau of Reclamation stated in a sworn affidavit that: ``Delays in 
completing the project have resulted in increased costs to the Federal 
Government and the State of North Dakota. Costs for materials and 
labor, coupled with rising inflation, have risen significantly between 
2002 and 2009 and the project is now more expensive to complete. The 
Dakota Water Resources Act of 2000 requires that all construction costs 
be indexed yearly to keep pace with inflation. For example, between 
2002 and 2009 there was a 36 percent increase in construction costs for 
pipelines and a 34 percent increase in costs for pumping plants. 
Further delays in the project will continue to significantly increase 
the total costs for completion.''
    The reality of further increased costs over time is undeniable. But 
so too is the ever-increasing need for a safe and reliable source of 
water for our communities. The long-term benefits in public health and 
safety, economic development and community stability will far exceed 
ever these increased costs. Again, we thank you for your continued 
support and respectfully urge your continued support and patience as we 
work to bring the NAWS project to fruition.
                                 ______
                                 

              [From the Minot Daily News, August 8, 2008]

             Berthold Rates to Reflect Better Quality Water
    BERTHOLD--Berthold residents will pay a little more for water 
beginning later this month, but Mayor Alan Lee said the price is a 
bargain.
    ``I think It's an extremely good buy for what we are getting,'' Lee 
said.
    Berthold and the Northwest Area Water Supply project will be 
celebrating the arrival of a new water supply on August 18. That's when 
Berthold is expected to begin supplying residents with NAWS water 
purchased from Minot. A celebration ceremony is set for 2 p.m. in the 
Sportsman Club, followed by a 3 p.m. ribbon cutting at the NAWS tank 
site.
    The Berthold City Council approved an increase of $2 per 1,000 
gallons in the price to water users. The average household will see its 
water bill increase $10 to $15 a month, assuming water usage remains 
the same.
    Lee said many residents haven't watered lawns and were buying or 
hauling drinking water because the quality of Berthold's water has been 
poor. With the arrival of good water, usage of the municipal system is 
expected to increase.
    Under a contract between the State Water Commission and the city of 
Minot, the commission will pay Minot $1.57 per 1,000 gallons for 
treated water to be delivered through NAWS to Berthold. Those costs, 
along with operation and maintenance costs of NAWS and the city of 
Berthold, will be passed on to water users.
    Berthold expects to purchase an average of 34,000 gallons a day 
from Minot this year. In the event of drought, Berthold would share in 
any water restrictions that Minot might impose on use of city-treated 
water.
    The Minot Water Treatment Plant produces an average of 10 million 
gallons a day for summer use and 5 million gallons a day in the winter 
for Minot, Minot Air Force Base and North Prairie Rural Water. Based on 
June billings, Minot used about 72 percent of the water produced, or 
more than 7 million gallons a day.
    Minot also has a contract with NAWS for use of its pipeline to 
distribute an average 1.16 million gallons a day to some city customers 
this year. Minot will pay NAWS 28 cents per 1,000 gallons to cover 
operation and maintenance.

                                              Jill Schramm,
                                                      Staff Writer.
                                 ______
                                 

              [From the Minot Daily News, August 19, 2008]

               NAWS Celebrates Water Delivery to Berthold
    BERTHOLD--Water flowed from Minot's treatment plant into a storage 
tank at Berthold as Berthold residents and others involved in the 
Northwest Area Water Supply project celebrated Monday.
    ``Now we are going to have good water,'' said Bob Inman, a member 
of the Berthold City Council. ``It will help the city grow ``
    Berthold's community band kicked off festivities that included 
speeches, a ribbon-cutting and what might have been the first 
ceremonial visit by a State Governor to Berthold. Joining Governor John 
Hoeven were other leaders who have worked on water issues, including 
area legislators, representatives of the State's congressional offices 
and officials from the State Water Commission, Garrison Diversion 
Conservancy District, city of Minot and Ward County.
    The State Water Commission is purchasing water from Minot to serve 
Berthold, a community of about 466 people. NAWS built a pipeline this 
past year to connect the two towns, located 25 miles apart, ``I know 
this isn't our long-term goal. Our long-term goal is to get Missouri 
River water here,'' said Dale Frink, State engineer with the water 
commission. ``I think it will happen. But this really is a very nice 
first step.''
    A lawsuit brought by Manitoba over proposed water treatment has 
prevented access to Missouri River water. The court has ordered more 
studies, and the Bureau of Reclamation hopes to finish an Environmental 
Impact Statement by the end of the year.
    Minot is providing water to Berthold in the interim.
    Following the ribbon-cutting, Minot Mayor Curt Zimbelman signed an 
agreement with the State Water Commission to authorize the sale of 
water. The Minot City Council will consider an amendment to address the 
city's long-term involvement should water from the Missouri River be 
indefinitely delayed. The amendment won't affect water sales for the 
interim projected in the agreement.
    ``We are going to complete NAWS, and today is a big step forward,'' 
Hoeven said during Monday's ceremony. ``It really symbolizes the 
progress we are making on the Northwest Area Water system.''
    He said the environmental study will ensure the project protects 
the interests of the State and Canada.
    ``We are doing it right. We are doing it well. We are being very 
diligent that it's environmentally sound, but we will not be dissuaded 
or deterred,'' Hoeven said. ``We are going to keep moving this forward. 
This is important to our State.''
    Berthold Mayor Alan Lee credited the project's progress to Minot's 
commitment, including passage of a 1 percent sales tax to pay local 
costs of NAWS for the region.
    ``This is a major day, a major step forward, and without that 1 
percent sales tax to push this forward, we probably wouldn't be where 
we are today,'' Lee said.
    Minot voters enacted the sales tax in 1999. In June, they rejected 
a plan to divert a portion of the tax to a community bowl.
    ``We have tried to help the communities around us as best we can,'' 
Zimbelman said. ``Certainly when we put in this city sales tax, we 
didn't think it would be in as long as it has been. This thing has been 
drug out. This has certainly slowed down projects we might have been 
able to do otherwise, but I know the community is behind NAWS. The 
importance of water just can't be overstated.''
    Michelle Klose, NAWS project manager with the water commission, 
said a delay in getting a pump station into operation has kept the 
people of Berthold from already being able to run Minot water out of 
their taps. The State is conducting bacterial testing today on the 
water in storage If the water passes the test as expected, the city of 
Berthold can begin Wednesday to flush its distribution system in 
preparation for delivering the new water.
    Monday's celebration drew some Berthold residents who are eager for 
the switch-over.
    Ever since he was a kid, Gary Gathman said, all he's known is 
hauling water for drinking. Things finally will change for him.
    ``I am looking forward to it,'' he said.
    ``I am, too,'' added Klint Hanson. ``It will be nice, real nice.''
    Hanson said he has drinking water delivered but must use Berthold's 
water for other purposes, much to his wife's chagrin. She will be happy 
when she can wash white clothes and have them turn out white, he said.
    Now that a NAWS transmission line to Berthold is in place, North 
Prairie Rural Water District also can begin branching off to serve new 
customers North Prairie will hold a meeting this fall with Berthold-
area residents interested in a rural water system.
                                              Jill Schramm,
                                                      Staff Writer.
                                 ______
                                 

               [From the Kenmore News, December 9, 2009]

                Kenmare Turns on the Tap for NAWS Water
    With the thermometer shivering at 6 degrees below zero, the valves 
were opened Monday between the Northwest Area Water Supply (NAWS) and 
the city of Kenmare water distribution lines.
    Kenmare now receives its water supply from the city of Minot and 
will continue to do so until the NAWS system has the capability of 
treating and distributing water from the Missouri River at Lake 
Sakakawea through its lines.
    ``This is the day we've been waiting for,'' said Kenmare mayor 
Roger Ness. ``This is one more step for us.''
    He added that Kenmare still has to build a new water tower and 
install a pressure regulating system to complete the upgrade to the 
city's municipal water system. Those projects will likely be bid in 
January or February 2010. ``We're planning a celebration next year when 
everything's done,'' he said.
    Many residents may want to celebrate now, knowing the water coming 
from their taps, filling their toilets or rinsing loads of laundry no 
longer contains the tannins and other solutes that have characterized 
Kenmare's water for decades.
    However, don't fill that coffee pot at the kitchen sink just yet. 
``It's not something you're going to notice today,'' said Ness.
    The entire Kenmare system has to be flushed. City employee Mike 
Thompson and city engineer Ryan Ackerman of Ackerman-Estvold 
Engineering in Minot already started that process, but it's going to 
take some time.
    Ness said the water pipes throughout town hold about 80,000 gallons 
of water, the tower holds between 25,000 and 30,000 gallons, and 
businesses and residences serve as another storage site for water. City 
employees drew down the city's cistern and tank as much as they could 
to maintain service before the valves were opened to the NAWS line, but 
the lines are still filled with old Kenmare water.
    On Monday, Ackerman and Thompson discussed a strategy for flushing 
hydrants around town. They were concerned about creating sheets of ice 
for drivers, given the week's forecast of single digit high temperature 
readings.
    ``We'll attempt to divert any water away from the streets,'' said 
Ackerman. ``We want to develop a flushing program to minimize impact to 
streets and properties.''
    Michelle Klose, NAWS project manager from Bismarck, recommended 
that homeowners do their part to flush their own lines. ``Citizens 
should run their taps for a few minutes extra,'' she said. ``It will 
take a little time, but you'll see the water clear up once you run it a 
while.''
    She emphasized the change to Minot City water could take several 
days, a prediction supported by Ackerman. ``The city will start 
flushing right away, but these transitions always take a little bit 
longer than you expect,'' said Klose.
    Ackerman said residents should not notice any changes in their home 
water pressure over the next few days. ``This will be no different than 
the regular flushing process,'' he said.
    Perry Weiner, water resource senior manager with the State Water 
Commission, cautioned residents and businesses who own older hot water 
heaters. ``That clean, clear water acts like flushing a radiator,'' he 
said, ``and you could see leaks. We've seen that a lot in the Southwest 
Area Water Supply project.''
                      new water, new billing rates
    The new water comes with an increased billing rate that went into 
effect December 1. The basic monthly fee remains $23, but the rate per 
1,000 gallons has been raised from $2.50 to $5.00.
    ``People will see that on their December billing,'' said city 
auditor Mary Brekhus. Those statements will be printed later this 
month. ``You have to pay by January 10.''
    That new rate may require further adjustment as the project 
continues. ``We're going to have to take a look when the project gets 
done and re-evaluate,'' Ness said.
    Ness and Brekhus noted that approximately 75 water meters still 
need to be replaced at locations around town. The new meters will allow 
remote readings to be taken. According to Brekhus, the city has about 
550 meters in service throughout town.
    Kenmore uses an average of 116,000 gallons of water per day. The 
city of Minot will provide 120,000 gallons of water to flush the 
system.
                      judge reviewing naws lawsuit
    While Klose was in Kenmare on Monday, she informed Ness about the 
status of the lawsuit filed by the province of Manitoba and joined by 
the State of Missouri to stop the NAWS project. An injunction was 
imposed on any design and construction work on the treatment plant for 
Missouri River water until the suit is resolved, but the judge has 
allowed construction of the pipeline itself.
    Final documents were submitted on behalf of NAWS in mid-November. 
Klose noted the judge filed an order last Thursday requesting more 
information regarding the placement of pipe in one particular location. 
The explanation must be given to the court by Friday, December 11.
    ``It's good she has responded to what we submitted earlier,'' Klose 
said.
                 now in compliance for arsenic standard
    The city of Kenmare has had an adequate supply of water for years 
from the city's two deep wells. However, the quality of the water has 
been less than satisfactory for many local residents, who often 
purchase water for drinking and resign themselves to discolored 
garments, towels and bedding after a few rounds through the washing 
machine.
    When Federal regulations went into effect in 2006 to reduce arsenic 
levels in municipal water supplies from 50 to 10 parts per billion, 
Kenmare water was found to be in violation. Samples showed arsenic 
levels at 11 to 14 ppb. ``It wasn't dangerous, but it was out of 
compliance,'' Ness explained.
    After examining several plans to bring the city's water supply into 
compliance with the arsenic standard, the city council agreed to 
purchase water from the city of Minot for delivery through the NAWS 
system.
    ``In any strategic planning session we've ever had, water quality 
is the key issue,'' Ness said. ``This is going to be great for the 
future of Kenmare, to have water that's high quality. Water is one of 
the most important commodities.''
    Klose joined Ness in celebrating completion of this part of the 
NAWS project. ``The community has been looking at different options,'' 
she said. ``There's been so much effort for construction, funding, 
communities working together, to keep this project going.''
    Minot is currently supplying water through the NAWS system to 
Berthold, with Kenmare in service and the Upper Souris Water District 
scheduled to come online within the next few weeks. Pipeline 
construction to Sherwood, Mohall and the All Seasons Water District 
should be finished next summer ``Next year, we'll have a couple more 
communities coming on,'' said Klose.
    Alan Walter, Minot City public works director, has predicted Minot 
has enough water to fulfill the needs of the entire system during off-
peak usage in the fall and winter months, with the outlying systems 
prepared to blend Minot water with their current sources for peak usage 
months.
    Ness said Kenmore will consider blending its water, but the city 
council may also look at restricted use of water for yards and gardens 
during the summer months to reduce or eliminate the need for blending.
    He praised the city of Minot and the State Water Commission for 
their cooperation on the NAWS project through the years and the 
commitment made to residents and communities of the northwest corner of 
the State.
    ``The stars must have been aligned just right to get this many 
entities working together in such a short time,'' Ness said. ``I give 
credit to Alan Walter and his department in Minot. They have been key 
to this project. And to the city of Minot and the Magic Fund for paying 
for much of this, and supplying this region with water until we can get 
water out of Lake Sakakawea.''
                                                    Caroline Downs.
                                 ______
                                 

               [From the Kenmare News, December 31, 2009]

      Donnybrook and Tolley Area Water Users Now Hooked Up to NAWS
    Approximately 150 water hook-ups in the Donnybrook and Tolley areas 
were connected Tuesday to water supplied by the city of Minot through 
the Northwest Area Water Supply (NAWS) pipeline.
    Gary Hager, general manager of the Upper Souris Water District met 
with Perry Weiner from the State Water Commission and engineers on the 
NAWS project to oversee a smooth transition as valves between the two 
systems were opened.
    Hager said customers in Plain, Ivanhoe, White Ash, Roosevelt, the 
eastern half of Sauk Prairie and the western half of Callahan townships 
would start receiving the new water in their taps, as well as residents 
in the towns of Donnybrook and Tolley.
    ``We have about 90 rural hookups and about 35 each in Tolley and 
Donnybrook,'' said Hager.
    The area served by the new water supply represents a portion of the 
Upper Souris Water District System I, with customers along the rest of 
that system scheduled to receive the new water after construction on 
the pipeline is completed to Sherwood and Mohall during the summer and 
fall of 2010.
    Customers of the Upper Souris Water District System II will have to 
wait until NAWS pipeline construction is finished north of the Minot 
Air Force Base. ``We're shooting for 2011,'' Hager said.
    The city of Kenmare connected to the NAWS system 2 weeks ago, 
purchasing water from Minot so the municipal water supply would comply 
with Federal arsenic standards. For the Upper Souris Water District, 
the change to the new supply will assist with the issue of water 
quantity. ``We needed more gallons,'' said Hager.
    He noted the current sources for both systems on the water district 
meet all Federal regulations for quality. ``We're even better than some 
places,'' he said.
    However, some customers along the line have lost water service 
during times of peak demand. ``Our plant is designed to provide 150 
gallons per minute,'' Hager said. ``At peak times, the demand can be 
250 gallons per minute.''
    Much of the water flowing during those peak demands goes toward 
agricultural use. Hager noted an increased demand for water in Systems 
I and II with recent changes in farming techniques. Forty to 45 percent 
of the total water usage in the Upper Souris Water District goes toward 
agricultural application.
    ``Ten years ago, we sold 47 million gallons a year,'' he said. 
``With the increase in spraying, by 2008, we sold 61 million gallons. 
Our average use per month is 3.6 million gallons on System I, but that 
goes up to 6 million gallons a day during the spraying season. That's 
when this will help.''
    Hager did not anticipate a need to blend the new water with that 
from the district's current supply at this time. ``But we will blend 
during the peak time if the demand out there requires it,'' he said.
    Initial flushing of the affected portion of System I took place 
Tuesday, with more flushing scheduled over the next few days.
    ``People should be patient,'' Hager said. ``This may take a week to 
10 days. We're flushing as fast as we can.''
    He also noted the disinfectant used in the Minot water supply is 
the same as that used by the Upper Souris Water District.
    The cost for the new water will be shared among all System I 
members at this time. The contract with NAWS and the city of Minot 
calls for a charge of $2.20 per 1,000 gallons purchased. ``Everyone (on 
System I) will benefit,'' Hager said. ``This frees up more gallons at 
our Kenmare water treatment plant for use during peak times.''
    For now, Hager estimated an increase of $3.50 per month for most 
customers. The rates may be re-evaluated and adjusted after more 
customers are added along the line, and then again after water can be 
supplied by the Missouri River, treated, and distributed throughout the 
NAWS system.
    Hager emphasized that Upper Souris Water District customers would 
continue seeing the same service and attention to water quality matters 
they've been experiencing.
    ``We're doing everything right now the same as we've been doing, 
plus buying water,'' said Hager. ``When we can use Lake Sakakawea 
water, that will supply 100 percent of our needs, and we may see a cost 
savings at that point.''
    U.S. Senator Byron Dorgan of North Dakota sent his congratulations 
for another successful NAWS connection. Dorgan serves as Chairman of 
the Senate Energy and Water Appropriations Subcommittee, with a total 
of $25.84 million approved in the past 3 years specifically to fund 
construction on the NAWS project.
    ``The funding we've been able to direct to the Garrison Diversion 
and NAWS has allowed us to make some exciting progress on the rural 
water supply in North Dakota,'' Dorgan said. ``The completion of this 
latest component of NAWS will be a great benefit for those who live in 
the Donnybrook and Tolley area.'' This is an investment in the region 
that is welcome news during Christmas week.
    The connection between NAWS and the Upper Souris Water District 
provided another visible sign of progress for the project. In addition 
to the pipeline segment completed between Berthold and Kenmare earlier 
this year and the connection to NAWS established for the municipal 
supply in Kenmare, a million gallon NAWS storage tank was under 
construction east of Kenmare at a cost of $1.841 million, and several 
miles of pipeline were laid on the Mohall-Sherwood-All Seasons segment 
at a cost of $5.114 million and on the All Seasons-Upham segment at a 
cost of $680,000.
    Once those segments are completed next year, water from the city of 
Minot will flow through the entire northern tier of the system until 
Lake Sakakawea water is available. Design and construction of a water 
treatment plant for the NAWS project is on hold until a lawsuit filed 
by the Province of Manitoba and the State of Missouri is settled in 
Federal court. Currently, the judge assigned to the case is reviewing 
final statements and additional information regarding placement of 
pipeline in specific areas.
    Hager told his customers to expect to see clearer water flowing 
from their taps within the next few days. ``I'm told it will even make 
good coffee,'' he said.

                                                    Caroline Downs.
                                 ______
                                 

              [From the Minot Daily News, August 12, 2010]

                     NAWS Water Flows to Burlington
    BURLINGTON--Burlington residents will be seeing a positive change 
in the water coming out of their taps soon.
    On Wednesday, the Northwest Area Water Supply project and city of 
Burlington turned the valve that will bring Minot's treated water to 
the 1,300 residents of Burlington.
    Clint Cogdill, Burlington's public works director, said residents 
could notice the difference by next week, once the city finishes 
flushing lines and draws down the existing water level in the 
reservoir. The water will be blended initially during the switch-over.
    Govenor John Hoeven joined Mayor Jerome Gruenberg shortly after 1 
p.m., in turning the valve located near Speedway, between Minot and 
Burlington along U.S. Highways 2 and 52.
    ``We have been waiting for this for a long time,'' Gruenberg said. 
``We were one of the first ones to sign up for this.''
    Gruenberg said the city built a treatment system to handle the high 
iron and magnesium that left its water supply brown. However, the water 
still contains other minerals that have prompted many residents to 
acquire water softeners or buy drinking water.
    ``We have really bad water,'' Gruenberg said. ``We have made it so 
it's usable but this will be better water for us.''
    Burlington had shared its water with the neighboring West River 
water system, which includes some housing developments between 
Burlington and Minot. NAWS turned on water to West River in June. 
Burlington waited to get an electronic water monitoring system set up.
    Burlington will receive up to 170,000 gallons a day from Minot 
through the NAWS line. The city will maintain its existing water supply 
and treatment plant to provide fire protection and a supplemental 
supply in times of heavy usage.
    Sherwood and Mohall are next in line to receive Minot's water 
through NAWS. That is expected to occur in October or November. All 
Seasons Water Users District also will get water at that time to serve 
the rural area north of Minot, including residents of Newburg, Antler 
and Russell.
                                              Jill Schramm,
                                                      Staff Writer.
                                 ______
                                 

               [From the Minot Daily News, June 23, 2010]

       Water Flows West--NAWS Begins Serving West River Residents
    The day that many residents of the Burlington area had long been 
waiting for came on Tuesday when water from the Northwest Area Water 
Supply project began flowing to West River Water and Sewer District.
    The city of Minot is providing water through NAWS until the project 
obtains water from the Missouri River.
    West River serves about 170 users and the Dakota Boys and Girls 
Ranch. Max Weppler, vice chairman for the water district, said people 
have been calling every day, anxious to know when the NAWS water would 
be turned on.
    ``Everybody is excited about it,'' he said.
    Dale Frink, State engineer, and Michelle Klose, NAWS project 
manager, both with the North Dakota Water Commission, were on hand for 
the turning of the valve near Speedway, between Burlington and Minot, 
that sent water flowing to the district. Officials with Minot, 
Burlington, West River and others involved in the project also were 
present.
    NAWS planned to flush lines Tuesday afternoon before introducing 
the new supply. Residents are advised that they may need to run their 
water for about 20 minutes to clear any sediment stirred up in the 
process.
    West River has been receiving its water supply through Burlington.
    Burlington is scheduled to begin receiving water in about 2 weeks 
once technical issues are finalized to enable the city's storage system 
to accommodate the flow.
    ``We are real pleased that this is going in,'' Burlington Mayor 
Jerome Gruenberg said. ``A lot of people in Burlington are looking 
forward to getting better water.''
    He said Burlington will be blending its existing water with the 
NAWS water. The city needs to maintain its existing water supply to 
provide adequate fire protection.
    Construction started this spring on the pipeline that is providing 
the water. Steen Construction completed the $471,000 project, which was 
funded with Federal and State dollars and Minot's 1 percent sales tax 
for NAWS.
    The two water systems will get up to 179,000 gallons of water a 
day.

                                              Jill Schramm,
                                                      Staff Writer.
                                 ______
                                 

               [From the Minot Daily News, March 5, 2009]

       Water Opportunity--Carpio Sees Opportunity for NAWS Water
    A Northwest Area Water Supply pipeline soon will be bringing water 
toward Carpio, giving the community a chance to tap into more 
dependable, safe water supply.
    Members of the city council have been knocking on residents' doors 
to share information and sign up potential water customers.
    ``The more people we sign up, the better it is looking to go 
forward,'' Mayor Jamie Armstrong said. ``It sure would be nice to turn 
your spigot on and not have to worry about where the water is coming 
from.''
    Carpio has no public water system. Residents are served by private 
wells. Last summer, some residents had problems with wells going dry. 
Water quality also has been an issue for some. The community's 
stockholder-owned cafe hauls water from Minot because its well water 
doesn't meet State standards for public drinking.
    Residents who sign up could be in line to receive water in 2010 
through North Prairie Rural Water District, working through the North 
Central Water Consortium. North Prairie would tap into the pipeline 
that NAWS plans to build from Berthold to Kenmare this year. The area 
would be served by water from Minot until the day that treated water 
from the Missouri River becomes available.
    Armstrong said there are 93 households in Carpio, and North Prairie 
wants 60 percent to sign up to proceed with a project.
    So far, interest has been good, Armstrong said. The council will 
assess the interest at its meeting March 9. If it looks positive, the 
council will meet with North Prairie.
    North Prairie would bring pipeline within 50 feet of homes at a 
cost of $525 per customer. Residents would be responsible for the 
hookups to their homes, Armstrong said he has been researching that 
cost but hasn't any estimate yet.
    Once water is delivered, the cost is projected to be $49 a month to 
cover operating, plus $4.60 per 1,000 gallons. The average household 
uses 4,000 to 5,000 gallons a month.
    Carpio's last opportunity to hook up to rural water was 30 years 
ago, Armstrong said. Residents declined at that time, but Armstrong 
believes circumstances are different for residents today.
    Good, reliable water can make a difference in getting a home loan 
or in selling a home, he said. It can determine Carpio's future.
    ``It's another expense, but it's something that's, hopefully, going 
to build this community,'' Armstrong said. ``It's a small town not far 
from Minot who could see potential growth.''
    Residents who pass up this opportunity can hook up later but at 
higher cost. The hookup charge rises from $525 to $1,200 in the first 
year and $2,400 after the first year.
    Armstrong said many residents, including himself, have looked at 
the costs and concluded that the water is worth it.
    ``Water is an important commodity,'' he said, ``and when you have 
the opportunity to get hooked up to it, it's so nice.''
                                              Jill Schramm,
                                                      Staff Writer.
                                 ______
                                 

             [From the Minot Daily News, December 17, 2009]

          Carpio-area Residents Need Money to Connect to NAWS
    CARPIO--Carpio-area residents aren't sure how long they will have 
to wait for good water even though a hookup is waiting for them in a 
Northwest Area Water Supply pipeline only one-half mile away.
    Water began flowing through the pipeline December 7 on its way from 
Minot to Kenmore. The problem for Carpio is there's no money yet to tap 
into the pipeline and build a distribution system for the water.
    The city of Carpio had hoped to receive water from NAWS next year 
through the North Central Water Consortium. The consortium, which 
consists of North Prairie Rural Water District and Central Plains Water 
District, plans to purchase water from NAWS to bring service to at 
least 65 subscribers in Carpio and about 100 more subscribers in the 
rural area.
    The consortium needs about $3 million to build a distribution 
system for the town and the surrounding rural area. It is seeking 
grants to make the project affordable.
    ``I would be really nice if we could figure something out,'' Carpio 
Mayor Jamie Armstrong said. He said the toughest part of the delay is 
``not knowing what to tell the residents in Carpio if they are going to 
get water or not. . . . It's disappointing because they won't give you 
any sort of an answer. They just keep waiting for funding. ''
    Darrell Hournbuckle, the consortium's engineer with Interstate 
Engineering, said there wasn't an opportunity to get Federal funding 
for 2010 through the Municipal, Rural and Industrial program. The 
consortium is working with Senator Byron Dorgan, D-N.D., to get funding 
into the 2011 budget.
    Money might be available through the U.S. Department of 
Agriculture's Rural Development program to get started next summer on a 
system for the town of Carpio only. The problem is that separating 
Carpio with its higher population concentration from the rest of the 
project jeopardizes the financial feasibility of getting water to the 
scattered rural customers, Hournbuckle said.
    ``No one wants to just abandon the rural people,'' Hournbuckle 
said.
    The Rural Development program would provide 45 percent financing, 
compared to the 75 percent financing associated with MR&I funds.
    ``It means the cost to each individual could be quite a bit 
higher,'' Hournbuckle said.
    The latest figures, based on costs last spring, showed that North 
Prairie could bring a pipeline to within 50 feet of homes at a cost of 
$525 per customer. Residents would be responsible for the hookups to 
their homes. Once water is delivered, the cost was projected to be $49 
a month to cover operating, plus $4.60 per 1,000 gallons. The average 
household uses 4,000 to 5,000 gallons a month.
    Carpio residents are working through the consortium rather than 
directly with NAWS because they have no public water system. Residents 
are served by private wells.
    Residents have had problems with wells going dry, and water quality 
is an issue. Armstrong said one home buyer was required to put in a 
reverse osmosis system to qualify for a mortgage. The community's 
stockholder-owned cafe has hauled water from Minot because its well 
water hasn't met quality standards.

                                              Jill Schramm,
                                                      Staff Writer.

    Senator Dorgan. All right. Thank you very much, Mr. Sando.
    And, next we'll hear from Mayor Curt Zimbelman, mayor.
STATEMENT OF HON. CURT ZIMBELMAN, MAYOR, CITY OF MINOT, 
            NORTH DAKOTA
    Mr. Zimbelman. Thank you, Senator. Welcome to Minot. We 
always appreciate it when you take the time to be here.
    My name is Curt Zimbelman; I'm the mayor of Minot.
    What is the future for NAWS? Currently plans are being 
developed for the NAWS improvements needed on the Minot Water 
Treatment Plant. Plans are also near complete for the extension 
of NAWS to the Minot Air Force Base and beyond. Preliminary 
plans are being looked at for the continuation of NAWS to the 
east of US Highway 83 along US Highway 5. This is all being 
done with the anticipation that we will get approval for the 
treatment and transmission of water from Lake Sakakawea.
    As you know, a U.S. District Court Judge is still reviewing 
this matter. We are working with the North Dakota State Water 
Commission and the U.S. Bureau of Reclamation to develop a 
supplemental EIS to answer questions raised by the project. To 
date, the city of Minot has spent $30,385,311 on the NAWS 
Project. This money has all been raised by the city of Minot 
through the NAWS $.01 sales tax, specifically for the 
development of NAWS. The city has done this in good faith with 
the process starting in 2002. We had fully expected to have 
construction of NAWS complete by this time, eliminating the 
need for a local sales tax for this purpose. As a growing city, 
there are many other infrastructure needs that exist and have 
had to be put on hold.
    With the mandated need for a supplemental EIS for NAWS we 
are now looking at approximately 2 more years before approval 
is granted for the project. So, we have a ways to go before 
construction can continue on the intake structure for the 
system at Lake Sakakawea, the treatment system at Max and the 
tank located near the Radar Base, south of Minot.
    The U.S. District Court is asking that we take a hard look 
at the transfer of biota from the Missouri River Basin to the 
Hudson Basin via the NAWS Project. There have been several 
studies completed on this subject. All of them conclude that 
the chance of the transfer of biota are negligible compared to 
what is happening routinely in nature.
    A study was conducted in Pennsylvania from 2005 to 2010 
related to the transfer of vectors for disease-causing 
pathogens by Canada geese. The study concluded that this is 
going on today. A copy of that study is included with this 
testimony. So, regardless of NAWS, vectors are being 
transferred across the Continental Divide from the Missouri 
Basin to the Hudson Bay Basin. On top of that, all legitimate 
studies show that there is almost no chance of biota transfer 
under any of the treatment alternatives for NAWS.
    U.S. Judge Collyer stated in her first ruling that NAWS is 
a needed project. The major remaining question is what type of 
treatment needed. Engineering studies have proven that the 
lowest cost treatment alternative, $17 million, treats the 
water the same as the highest cost treatment alternative, 
nearly $l00 million. However, the U.S. District Court has asked 
that the EIS be looked at a little harder before the water 
treatment portion of the project can go forward. In the 
meantime, the Canada geese, ducks and all other water birds are 
flying back and forth doing what they do without the assistance 
of any project.
    The city of Minot has signed a contract with the North 
Dakota State Water Commission and the NAWS system to 
temporarily supply water for its existing ground water source. 
The contract has a limited term. Limitations are also 
necessarily in place in this contract on the amount of water 
that each entity can draw from the NAWS system to protect the 
current Minot water supply. So, in addition to the city of 
Minot raising the sales tax to complete NAWS, we are also 
temporarily supplying water to the legion. Should the 
supplemental EIS process be prolonged, the temporary contract 
and temporary regional water supply could become another hurdle 
for NAWS.
    To move this project forward we need the entities which are 
conducting the supplemental EIS to do so with due concern for 
the timely completion of that study. We are two years into the 
contract for temporarily supplying water from the Minot ground 
water source. We may have two more years to get the 
supplemental EIS completed and then considered by the judge. 
After this process is complete and the NAWS project receives 
the green light to proceed, we will still have more years 
required constructing the system south of Minot to get water 
from Lake Sakakawea to the Minot Water Treatment Plant.
    Should the decision be made that the highest-cost treatment 
alternative is the one chosen for NAWS, that $100 million 
Federal cost will present a significant funding timeline issue 
for NAWS completion.
    In conclusion, to move the project forward we need the 
supplemental EIS completed as soon as possible. We need Federal 
funding for the project to be timely and sufficient to complete 
the water treatment at Max. We also need continued cooperation 
with all entities involved in the process and in this project.

                           PREPARED STATEMENT

    Thank you for the opportunity to testify today and look 
forward to the completion of the NAWS Project and the continued 
working relationships we have with the North Dakota State Water 
Commission, the Bureau of Reclamation and our Congressional 
Delegation.
    Thank you.
    [The statement follows:]
               Prepared Statement of Mayor Curt Zimbelman
    We want to thank Senator Dorgan again for holding the Energy and 
Water Subcommittee hearing on August 11, 2010 in Minot, North Dakota 
for the NAWS Project. There were several concerns raised at the end of 
the hearing that we would like to give input on.
    The first concern is the expected progress on the project. The 
second concern is the use of the Minot water supply. The third concern 
is the depletion of the Missouri River as a result of water pumped for 
the Northwest Area Water Supply.
                   progress and construction of naws
    The North Dakota State Water Commission, the U.S. Bureau of 
Reclamation, and the city of Minot have continued with the construction 
of court approved non-treatment related segments of the NAWS Project 
based on the approval from the U.S. District Judge Collyer as part of 
her ruling on the NAWS lawsuit. We clearly had not expected our project 
to be delayed so long by the lawsuit filed by Manitoba, Minnesota and 
Missouri.
    It is also clear that the citizens of North Dakota have the right 
to access water in the Missouri River System. The water that we would 
draw for the NAWS project is a very small portion of the water that 
drains into the Missouri River System from within our own State. So, 
our project has been constructed with full anticipation that we would 
be given a water right and that we would be able to draw water for our 
citizens.
    After substantial completion of the water main between lake 
Sakakawea and the Minot Water Treatment Plant we have continued with 
the construction by building water lines to the west and then to the 
north of Minot. Currently, we are anticipating construction of water 
lines north to tie into the Minot Air Force Base and that part of our 
region.
    We are also asking the court to allow the construction of the 
intake facility for withdrawal of water from the Missouri River System 
for our project. We have received concurrence for the construction of 
the improvements at the Minot Water Treatment Plant in preparation for 
NAWS water.
    So, construction of the NAWS system to this point has been approved 
by the court. We have not blindly forged ahead on NAWS construction. We 
have received concurrence and approval on all phases that have been 
constructed. We continue to anticipate the day when the court will rule 
in favor of a water treatment alternative for the Missouri River water 
that we have sought for so long. It is worth repeating that the judge 
stated in her first ruling, that NAWS is a needed project. It needs to 
be clearly understood that treatment of the Missouri River water, to 
whatever level is finally determined by the Federal Court, is a Federal 
responsibility.
                      use of minot's water supply
    As the construction of the NAWS Project began there were 
negotiations and a contract with the North Dakota State Water 
Commission developed for the use of Minot's interim water supply to 
supply water to the NAWS system until we had received approval to draw 
water from the Missouri River System. The Minot water supply is mainly 
from the Sundre Aquifer located southeast of Minot. Again, our current 
aquifers are an interim water supply. The water line to this source was 
constructed by the Corp of Engineers in 1974. This water supply was 
constructed with full anticipation of Missouri River water being 
delivered to Minot.
    Because of our knowledge of the capability and limitation of the 
Sundre Aquifer, contracts were developed between the city of Minot, the 
North Dakota State Water Commission and the U.S. Bureau of Reclamation. 
These contracts have limitations, both for the term for usage and for 
the amount of water that can be supplied daily to the outlying 
communities.
    The North Dakota State Water Commission previously did a study on 
the Sundre Aquifer. They are fully aware of the capability of the 
Sundre Aquifer and its use as an interim water supply for the NAWS 
System. We are now relying on that interim water supply for the city of 
Minot and for some of the communities in the NAWS System. Some of the 
small communities to be served by the NAWS system were under EPA 
requirements to improve their water treatment because of poor water 
quality. So, on an interim basis the NAWS project has been able to help 
provide these communities with a good quality, clean water supply.
  depletion of the missouri river system with the withdrawal for naws 
                              water supply
    During the hearing there was mention of the depletion aspect of the 
Missouri River system due to the withdrawal of water for NAWS and for 
other projects in North Dakota. That issue was previously studied by 
the U.S. Bureau of Reclamation and the Corp of Engineers and they 
reported that the withdrawal of water from the Missouri River System 
for these projects would have a negligible effect on the water in the 
river system. The Environmental Impact Statement that has been 
completed for the NAWS project stated that the withdrawal of water for 
the NAWS Project from the Missouri River System would not be able to be 
measured downstream of the Garrison Dam. Even though the State of 
Missouri claims all of the water in the Missouri River System, the 
citizens of North Dakota have a right to water that is flowing into the 
river directly from our State.
    As an example, if one were to suppose that a dam were constructed 
in North Dakota on Shell Creek to store water for domestic use it would 
be the same water that is flowing into the Missouri River System in the 
vicinity of Van Hook. And, this would be water coming off of our State 
and being put to public use as potable water before it got into the 
Missouri River System. That same proposition could be used on all of 
the rivers flowing into Lake Sakakawea or the Missouri River from the 
State of North Dakota. It is the right of the citizens of North Dakota 
to use the water that runs off of our State for our purposes.
    Again during the hearing, the question of previous meetings being 
held between the Province of Manitoba, the State of North Dakota and 
the U.S. Bureau of Reclamation was discussed. It was indicated at the 
hearing that there had been some progress made between the entities as 
those previous meetings proceeded. However, progress at those meetings 
was not significant. The meetings were cordial and to the point. The 
topics discussed were the treatment processes with particular emphasis 
on the dissolved air flotation process that the Canadians favored for 
pretreatment of the water. No final resolution was found on the issues 
that have divided us.
    If as suggested at the hearing, the meetings should be continued, 
the responsibility to facilitate them must be on both Federal 
governments. The responsibility should not lie with the State of North 
Dakota or with the city of Minot.
    The city of Minot still expects a fair ruling from the judge in the 
lawsuit. We hope that due consideration will be given to the studies 
and in particular to the study of the three treatment options that have 
been presented. If the court looks at the reports on the treatment 
options, we believe the decision will be to move forward with the least 
costly option. The reason for this is that all three options give 
basically the same level of treatment. There is no significant 
statistical difference between the treatment of the water from the 
least cost option to the most expensive option.
    We thank you for the opportunity to present this additional 
testimony for the hearing.

     Senator Dorgan. Mayor, thank you very much. We appreciate 
your being here and your testimony. Next we'll hear from Mr. 
Roger Ness, who is the mayor of Kenmare, North Dakota.
    Mr. Ness.
STATEMENT OF HON. ROGER NESS, MAYOR, CITY OF KENMARE, 
            NORTH DAKOTA
    Mr. Ness. Thank you. Thank you Senator Dorgan for all 
you've done and for your commitment to this project. It's vital 
to this area, and it's vital to every little town, like 
Kenmare.
    Kenmare was a town that had lots of water, we had no 
problem with quantity, but our quality was very bad. Three 
years ago we were out of compliance with arsenic. So, we did a 
study and it was a $2.5 to $3 million project to make our water 
drinkable. We have 550 hook-ups; therefore it was an economic 
burden for our town to even consider that.
    So, we went to NAWS, the committee agreed to look into it, 
the State did a study on it, and we were able to get water 
within 18 months after we asked; so that was a huge thing for 
our city.
    The water is unbelievably great. It's Minot water, which we 
totally appreciate, because our water was terrible. And we want 
to thank the city of Minot, for the funding, and giving us 
water.
    We were in a situation, even last week, where we all of a 
sudden had to start rationing water, because this is--our 
interim is not capable when it gets to be a hot period in the 
summer. So, we're already looking at implementing different 
programs for rationing and cutting back on water, because we do 
not want to have to blend our water with this good-quality 
water, and if this lawsuit isn't taken care of, our future is 
in doubt. We're looking at if we have to either go back to 
blending, or the worst scenario, we have to build a new 
treatment plant. And right now, I'm sure that would be between 
$4 and $5 million.
    So, for every little town that is in this, like Mohall and 
Berthold, the quality that we're getting out of this water is 
unbelievable, and it helps our town's economic future is 
looking very good for these towns because of this. And we're 
just very concerned that this lawsuit gets taken care of and we 
are ready to go on and not worry about it.
    So, thank you very much, and hopefully we can get this 
solved.
    Senator Dorgan. Mr. Mayor, thank you very much.
    Next, we will hear from Dan Schaefer, who is the manager of 
All Seasons Water Users District, Dan.
STATEMENT OF DAN SCHAEFER, MANAGER, ALL SEASONS WATER 
            USERS DISTRICT
    Mr. Schaefer. Thank you, Senator. I'm Dan Schaefer, Manager 
of All Seasons Rural Water; our office is located in Botenhall. 
We won't go to extremes, but we serve the north central part of 
the State from Mohall to Rockley, from the Canadian Border 
south to Balta, the little town of Balta. Our last user is 
Devil's Lake. So, we cover a pretty big area; 1,600 miles of 
pipe in the ground, 1,350 users, forward bulk users. The 
difference between this is, its four separate systems, only two 
of the systems will receive water through NAWS.
    One of the systems that will be receiving water this fall 
is System Three. That area runs from west of the Souris River 
which is east of Mohall, that is System Three. We serve people 
within the towns of Newburg, Russell, Antler, and the areas 
around Westhall. Our water treatment plant is located three 
miles south of Antler, the original well field was developed in 
1976, four wells for that system, in 1980--or 1991--we added an 
additional well field northeast of Antler. That well field was 
added because of the drought that started in 1987 in that area. 
We experienced a severe water shortage, ended up having to buy 
water from the city of Westhall just to keep water in the 
pipes, let alone have water in the homes.
    After an extensive test drilling plan, we did locate 
additional wells northeast of Antler. Those are 300 feet in 
depth and the water quality in those wells are poor-quality 
water. And when we drilled those wells, they're 300 feet deep, 
the water started at 30 feet above the ground when we developed 
them. Today its 230 feet down to the water, and the pumps are 
set at 270. So, those wells are getting to a point of being 
critical, besides.
    The original wells are shallow wells. This spring, with the 
dry spring we went into--believe it or not is what it is in the 
State right now--we had to quit using the shallow wells 
altogether and depend upon only the deep wells to supply water 
at this time.
    We will be receiving an interim water supply from NAWS this 
fall on that system. That will be additional to what we already 
have. There will be times in the summer that we will not 
receive enough water through NAWS that we'll have to run our 
own plants and wells to keep up with agriculture spray needs.
    So, obviously the completion of NAWS where we get full flow 
through NAWS, the System Three area is very, very important, 
besides improving the quality of water. All Seasons System One 
is the area around the Bottineau area, serves from the Souris 
River east to Rolette County and south of Willow City and 
Kramer and Upham.
    That system serves individual homes within Landa, Gardena, 
Kramer, Overly, and we are currently--as of the first of 
December--supplying bulk water to the city of Upham through 
funding through your generosity or the funding that you've 
provided.
    That system was built in 1976, also, with two existing 
wells. In 1981, additional water was looked for in that system, 
which was located northeast of Bottineau. Poor quality water, 
so an iron manganese removal plant had to be built to handle 
that water. Again, those wells were built in 1981 and continued 
to drop into the early 1990s when we found the third water 
supply for that system. That water is a lot higher quality 
water, but as we found in the study that we did with the city 
of Bottineau, trying to find a better source of water for 
Bottineau, that the Water Commissioner did in 2002 and 2003 
that showed that our well field was capable of handling our 
current needs, but not enough to help the city of Bottineau. 
The city of Bottineau wells could handle their needs, but that 
was it. There wasn't a big abundant supply of water in that 
area, also.
    So, since that time, Bottineau has built an iron manganese 
plant to improve their quality problems. They are continuously 
testing for Radionuclides Gross Alpha Emitters from the uranium 
that's in the water. So, I talked with the city, even this 
morning, and they've got two wells they absolutely don't use 
unless it's a dry, dry season, and then that's--they'll have to 
deal with the by-products of the uranium. So, again, completion 
of the NAWS project into that area is very important to that 
area.
    Also, just to show the cooperation of NAWS, the city of 
Minot, and everybody involved, through the funding I talked 
about to the city of Upham, there is a need to parallel a line 
from our treatment plant toward Upham. Not all the way to Upham 
to the city of Gardena. This meant that when NAWS came there 
would be areas that there were four water lines in the ground.
    So, I approached NAWS Committee and the Water Commission 
about possibly putting a line in that could be used by NAWS in 
the future. We can use it now to supply water to Upham. That 
agreement was made, there was 3.5 miles of 10-inch pipe put in 
the ground in 6 miles that was paid for through NAWS and the 
city of Minot. And now that is in place and we're supplying 
water to the city of Upham through most of that line.
    So, like I said, that demonstrates how NAWS is helping the 
area, the Water Commission is helping the area--helping us work 
on projects that can get water to people, rural people in North 
Dakota.
    A few little, what I'm calling points of interest. All of a 
sudden there's an oil boom northwest of Bottineau where they're 
not into the Bakken Formation, they're drilling above that. 
They are fracking those wells, not near the amount of water 
required to do the Bakken fracks, but they're up there looking 
for water. And you hear rumors, the oil business is rumor-
related, but of hundreds of wells going in that area, and there 
isn't any of us that can handle that kind of water supply to 
supply to the oil fields. So, that's a new problem that we're 
going to have to deal with in that area.

                           PREPARED STATEMENT

    The other one that I'd like to point out is that All 
Seasons is currently serving two Canadian ports of entries. 
We've got two Canadian customers on our system--one will be 
receiving water through NAWS this fall. And I've been 
approached, several times, gone on tours into Canada, by people 
in Canada, wanting to know how we can get them water. The 
southern part of Manitoba is--well, it's just as dry as it was 
back in the 1980s, 1990s. And they've contacted us on how to 
get water to them. So, the need is even in Southern Manitoba. 
It's just, the politicians of Manitoba doesn't understand that.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Dan Schaefer
    Dear subcommittee members, All Seasons Water Users District (ASWUD) 
System III provides water for rural users in the area west of the 
Souris River and south of Russell, south of Newberg, east of Mohall and 
east of Sherwood, individual hookups within the city of Newberg 
individual hookups within the city of Antler, with the northern border 
being the U.S. and Canadian border. (See attached map for approximate 
System III Service area.) The Water Treatment Plant is located 3 miles 
south of Antler and the original well field is located northwest of 
Antler (4 original wells) and the second well field is located 
northeast of Antler (2 wells installed in 1990).
    Due to the drought conditions which started in 1987, ASWUD System 
III experienced a severe water shortage, after extensively test 
drilling in the Antler area two wells were drilled northeast of Antler. 
These wells are approximately 300 feet in depth and the water quality 
is considered to be poor. Since these wells were put into production 
the water level has continuously dropped. With the wet cycle over the 
past years the existing wells were able to be used to help increase the 
quality of the water and also helped to decrease the drop in the levels 
of the newer wells.
    In the past several years the Antler area has gone from extremely 
wet to a dryer fall than we experienced in the late 1980s. In the 
spring of 2010, the water level in the 4 existing wells dropped low 
enough that we had to rely entirely on the two deep wells. The interim 
water supply that we will be receiving this fall from NAWS will provide 
an additional water supply to supplement our existing wells and 
hopefully avoid any water shortages in the near future.
    The completion of the NAWS Project would give ASWUD System III a 
reliable source of high quality water.
    All Seasons Water Users District (ASWUD) System I provides water 
for rural users in the area east of the Souris River and south of 
Willow City, east to Rolette County, individual hookups within the city 
of Kramer, individual hookups within the city of Landa, individual 
hookups within the city of Gardena, individual hookups within the city 
of Overly and Bulk Water Service to Upham, with the northern border 
being the U.S. and Canadian border. (See attached map for approximate 
System I Service area.)
    In 1981 ASWUD located an additional water source northeast of 
Bottineau which required the construction of an iron/manganese removal 
plant. The water quality from the new water source and the existing 
source was still not high quality water. The water level in the wells 
of the new source continuously dropped from the day they where put into 
production.
    In 1993 ASWUD located a new water source west of Bottineau; the 
water from this source was a much higher quality of water.
    In 2002 and 2003 the North Dakota State Water Commission conducted 
a study to determine the capacity of the city of Bottineau and ASWUD 
well fields, this joint study determined that the existing water 
sources for both the city of Bottineau and ASWUD were capable of 
meeting the current needs of each entity. ASWUD has added additional 
users and is supplying bulk water service to the city of Upham, which 
has expended the current water supply and does not allow for any 
additional expansion.
    Since then Bottineau has constructed an iron/manganese removal 
plant to improve their quality problems, and are continuously testing 
to stay in compliance of the Radionuclide Rule (Goss Alpha Emitters). 
ASWUD and the city of Bottineau are continuing to work together, but 
NAWS still continues to be the most feasible option.
    The completion of the NAWS pipeline to the Bottineau area is 
necessary to solve the emergency situation in the Bottineau County and 
the surrounding areas.
    The All Seasons System I.--Service to Upham Project that provided 
bulk water service to the city of Upham required that ASWUD parallel 
our existing 4 inch line from our Water Treatment Plant south in order 
to increase the flow into our reservoir/pumping station located at 
Gardena. Through an agreement with the North Dakota Water Commission 
(Commission) and NAWS the Commission, through planning on the NAWS 
project, determined that NAWS would be paralleling these features in 
the future. Through this agreement the pipeline project between the 
Water Treatment Plant and Gardena was sized to meet the immediate needs 
for service to Upham as well as the long term needs planned to be 
served through NAWS and construction costs for this portion of the line 
was funded through the NAWS project.
    The Project included installing approximately 3.3 miles of 10 inch 
and 10 miles of 6 inch pipe, road crossings, connections to existing 
pipeline, and related appurtenances sized and required for NAWS between 
the ASWUD System I Water Treatment Plant and Gardena. This NAWS Project 
was part of the larger construction contract All Seasons System I--
Service to Upham Project to provide the city of Upham with a water 
supply from the All Season's water system.
    Through the agreement ASWUD will turn over possession and operation 
and maintenance of any and all features requested by the Commission, 
including pipeline, facilities, and easements associated with the NAWS 
Portion of the Project to the Commission, or entity designated by 
Commission, when at the sole discretion of the Commission, it is 
determined water supply is available from Lake Sakakawea and NAWS 
features have been constructed to serve the Project constructed through 
this agreement.
    This Agreement between ASWUD and the Commission/NAWS demonstrates 
the good working relationship that NAWS has with the existing water 
systems and communities within the NAWS service area.
    Thank for allowing us to provide this information.
                           points of interest
  --With the renewed oil exploration in the area northwest of Bottineau 
        and the demand for water in the development of these oil wells, 
        this presents a new demand for water in Bottineau County that 
        will put more strain on the current water sources.
  --ASWUD System III currently provides water service to two Canadian 
        ports of Entry, One located north of Westhope, North Dakota 
        (Coulter, Manitoba) and one located north of Carbury, North 
        Dakota. (Goodlands, Manitoba)
  --ASWUD management has had several conversations with residents in 
        southern Manitoba about ASWUD possibly providing them water 
        service.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Senator Dorgan. Thank you very much for your testimony.
    I have a number of questions. First, let me deal with this 
question of the depletion of the water resource in the 
Reservoir.
    Mr. Sando, can you amplify on the 3.1-million acre feet 
allocation? When you say North Dakota has allocated 3.1-million 
acre feet, where does that allocation exist? It's your choice.
    Yes, get very close to the microphone, if you will.
    Mr. Sando. Is it on?
    Senator Dorgan. Yes, I believe so.
    Mr. Sando. Regarding the 3.1-million acre feet, that's what 
was allocated for the Garrison Diversion Project. So, to come 
from Lake Sakakawea, that's part of the Mothall use carryover 
zone for the Garrison Project.
    Senator Dorgan. Is that in the Reformulation Act, or is it 
in the original contracts; where exactly does that exist?
    Mr. Sando. Where does that exist? Boy, off the top of my 
head, I couldn't answer that question.
    Senator Dorgan. Mr. Breitzman, do you know?
    Mr. Sando. I can take a shot at it.
    Senator Dorgan. Okay.
    Mr. Sando. It's part of the 1944 Flood Control Act--with 
the help of Michelle----
    Senator Dorgan. So, you're saying, in the 1944 Flood 
Control Act, there is a 3.1-million acre feet allocation?
    Mr. Sando. And they applied for a permit through the North 
Dakota State Water Commission, so there's a water right out 
there for 3.1-million acre feet of water to be----
    Senator Dorgan. When you say, ``They applied for,'' who are 
they?
    Mr. Sando. The Bureau of Reclamation.
    Senator Dorgan. The Bureau applied for that?
    Mr. Sando. Yes, this long portion of the Flood Control Act.
    Senator Dorgan. All right. So, if there's a 3.1-million 
acre feet allocation, my understanding is that, of the 3.1-
million acre feet, the NAWS Project is probably about 10,500-
acre feet, is that correct?
    Mr. Sando. The number is up to about 15,000-acre feet.
    Senator Dorgan. Fifteen thousand?
    Mr. Sando. Very small amount.
    Senator Dorgan. Yes, minimal.
    Mr. Sando. Minimal, right.
    Senator Dorgan. It's a miniscule amount of water, all 
right. So, it seems to me that when next the Federal court 
addresses this, if they have any amount of facts or logic that 
they could bring together and apply, like a tongue-in-groove 
fitting, maybe they can reach a conclusion that this is an 
infinitesimal amount relative to that which has been promised 
our State. Would you agree with that?
    Mr. Sando. Oh, I'd definitely agree with that.
    Senator Dorgan. You'll tell the Court that, personally, I 
hope?
    Anyway, it is just irritating to even be talking about that 
issue, but I wanted to just lay that out at the front end.
    Let me ask a series of questions, here, on timing. Mr. 
Breitzman, I believe you said, you will complete the additional 
environmental studies, or requirements, that you believe the 
court needs by the end of 2011, is that correct?
    Mr. Breitzman. We believe we can have a draft document done 
by the end of 2011, Senator.
    Senator Dorgan. Tell me what that means. I know a little 
bit about what timelines mean for the Bureau of Reclamation, 
and what draft documents mean, but explain, if you will, for 
the rest of the folks, what it means to have a draft.
    Mr. Breitzman. We would have any analysis done that we have 
to do, any new information gathering, any new modeling, and 
some was mandated by the Court. And that will all be completed, 
we will have a document written, and at that time a draft 
document, then, is ready to be circulated to the public for one 
final comment period.
    Senator Dorgan. And describe that period.
    Mr. Breitzman. It is usually 60 days. And the reason I 
don't give you a timeline as to the final document is because 
it's really difficult to know what we might get in terms of 
comments. When we put out a draft for comment, sometimes it 
takes a year to respond just to the comments, which have to be 
included in the final document--both the comments and our 
responses. Sometimes it takes a month. And it just depends on 
the type and magnitude of comments that we receive.
    Senator Dorgan. So, then you respond to the comments, and 
when does the draft become final? When will what you're working 
on become a final submission that represents a response to the 
Court requirement?
    Mr. Breitzman. As soon as we can assimilate all of the 
comments we receive on the draft and write responses to each 
one of those comments--and change the document, if necessary, 
based on those comments--which can take--that's why I say, it 
can take months, or it can take a year. But, as soon as we're 
done with that process, then it's a final environmental impact 
statement.
    Senator Dorgan. Mayor, it seems to me that Mr. Breitzman is 
describing a process--that, at the very earliest would get to a 
final EIS, or a final Bureau of Reclamation product, by July 
2012. If comments are extensive--and one would expect that you 
would have a lot of comments in something that is 
controversial, especially with the Canadians, it may be the end 
of 2012. So that's 2 full years from now. I want to ask you the 
question about the supply of Minot water. You have a contract 
for 10 years with an opt-out clause, and you're 2 years into a 
10-year supply for Kenmare and others, Burlington, I assume.
    So, go down the road another 2\1/2\ years. Where are you 
with respect to the Minot aquifers, the aquifers from which you 
get your water?
    Mr. Zimbelman. Well, Senator, as was stated earlier, it's a 
limited supply to the NAWS Project. So, as--if our aquifers get 
low, we have the ability to stop providing that water. And we 
felt that was important for the people of Minot to protect 
their aquifers.
    So, depending on what kind of years we have, you know, it's 
going to be very difficult for us to supply any more than we 
have to, to the small towns around us.
    Senator Dorgan. Well, the reason I asked that question is, 
the testimony here is about continuing to build additional 
pipeline capacity to supply additional regions, and it's a 
pretty aggressive approach, which I think is the right 
approach, the question is the timing. If you're laying pipe 
through which no Missouri water is moving, 3 years, and 5 years 
from now, it seems to me there's a real serious dilemma that 
we're establishing. We're putting money in pipes, in the 
ground, which will not carry Missouri River water, and which 
could conceivably not carry Minot water, if a Minot aquifer is 
sufficiently depleted to be a problem for the people of Minot. 
The people of Minot, after all, are the ones who have 
contributed the second-largest quantity of money, here, a 
rather substantial amount of money.
    So, I'm trying to understand the timing, and what we should 
all expect, going forward. The first Canadian filing in the 
Federal Court was in 2002. Mr. Breitzman, that's 8 years ago. 
So, what I'm also trying to understand; how is it 8 years after 
the Canadians went to court to cause problems for us with this 
project that we're not through the court system, somehow? I 
just don't understand. Can you explain that to me?
    Mr. Breitzman. Not very well.
    Senator Dorgan. Well, do the best you can, if you will. I 
mean, I don't understand it. Eight years, it seems to me, 
should have been enough time for us to resolve the legal 
disputes that might or might not exist. Because, as I 
understand it, the circumstances now are about, how the water 
is going to be treated. Isn't that the major part of the issue 
that was raised by the judge?
    Mr. Breitzman. The biota transfer has always been a major 
issue. And now the depletions on the Missouri River have come 
into play, as well.
    I can tell you this; the suit was brought against us in 
2002. It took--I think it was nearly 2 years before we were on 
the calendar to have the first hearing, for the case. The 
process went that slow. We had hearings, we tried to get the 
case dismissed, and we weren't successful in that. And then we 
prepared the EIS. It was based on the judge's court order, 
which really addressed two issues. The first court order--which 
was in 2005, she focused on the consequences of a pipeline 
failure, No. 1, and then just asked us to take a hard look at 
treatment alternatives--do an expanded analysis of the 
different treatment alternatives.
    And so, we did an EIS, and we scoped it to those two 
issues, that's what we looked at in the EIS.
    Senator Dorgan. That was the EIS for 2008?
    Mr. Breitzman. Correct.
    Senator Dorgan. Okay.
    Mr. Breitzman. And in retrospect, maybe we would have done 
something different. Our NEPA experts in our agency and our 
attorneys said that was the appropriate way to respond to her 
order.
    When we received the Court's order this year, it went into 
issues beyond those two issues. The depletion analysis came in. 
And, to paraphrase----
    Senator Dorgan. But, you know what, that cannot possibly be 
serious, in my judgment. With all due respect to the court 
system, the depletion issue is specious, as far as I'm 
concerned.
    Mr. Breitzman. And I agree. I agree, and I think we have 
the information to show that, and we're working with the Corps 
of Engineers to run their river model to show what that impact 
would be.
    But, I guess my point is, she brought that up--which was 
not a point included in the court order in 2005. And so, she 
expanded this last ruling beyond what we thought we were 
addressing in the 2005 ruling.
    Senator Dorgan. Set aside the depletion issue. What I'm 
trying to understand is if, in 2002, they raised the questions 
about treatment and transferred biota and so on why did we come 
up short in the EIS in dealing with that question?
    Mr. Breitzman. I don't know that I can answer that. I think 
we're very disappointed. We thought we did a very good job, and 
we were surprised that we lost that suit this year.
    Senator Dorgan. I think you just said that a potential 
breach in the pipeline was one of the issues. The suggestion 
was that it could cause a quantity of water that exceeds 
Niagara Falls, is that----
    Mr. Breitzman. I know it was in the hearing transcript, if 
it's not in the order. That she was convinced a breach in the 
pipeline would release the same amount of water that flows over 
Niagara Falls in a day or something like that.
    And the court order also addresses the mountain range 
between Lake Sakakawea and Minot. There are things there that 
we disagree with and we're disappointed with, but we have to 
comply with the ruling.
    Senator Dorgan. Yes, but we've got to move, here. My point 
is, it's 8 years later and we're still waltzing around trying 
to figure out how we're going to treat water. We know that 
we've got to build a holding structure, right, a reservoir. We 
know we have to build a treatment plant, is that correct? So, 
we've got several things we have to do at the lake in order to 
get that water treated and into a pipeline. So, what are the 
three things we have to do, there?
    Mr. Breitzman. Well, it's primarily--it would be chlorine 
disinfection, and then we've added ultraviolet radiation at 
that treatment plant.
    Senator Dorgan. But you have to build something to take the 
water out.
    Mr. Breitzman. At the intake?
    Senator Dorgan. Yes, the intake.
    Mr. Breitzman. Oh, yes.
    Senator Dorgan. And then you have to have a control 
structure, and then a treatment plant. Are those the things 
that you have to do?
    Mr. Breitzman. Right.
    Senator Dorgan. Let's assume that today you had clearance, 
or we had clearance in this project of ours to go ahead and do 
that. How long would that take, do you think? What is the 
estimate of that? Mr. Sando.
    Mr. Sando. In regards to, if we got everything cleared up 
with the court ruling?
    Senator Dorgan. Yes.
    Mr. Sando. We could be moving forward, we could probably--
within 6 years have everything in place.
    Senator Dorgan. You're talking about those three 
structures: intake, control, and treatment?
    Mr. Sando. Yes.
    Senator Dorgan. That's going to take 6 years from the time 
you start?
    Mr. Sando. Yes.
    Senator Dorgan. All right. Now, I am understanding the 
dilemma.
    Mr. Sando. Yes, we could probably really do it in 5 years 
if we had everything cleared up?
    Senator Dorgan. Yes.
    Mr. Sando. Yes.
    Michelle was also mentioning that we have to do 
improvements into the Minot treatment plant, not just the 
treating for biota, but other treatment plant issues, for 
treating water.
    Senator Dorgan. Will that add to the time?
    Mr. Sando. No, that will fit within the timeline.
    Senator Dorgan. Within the timeline. I understand.
    Let's assume for the moment that the intake is built, 
control structure, treatment plant, and water is now running 
from the reservoir into Minot. Is that water, then, also 
running through the Minot treatment plant?
    Mr. Sando. Yes, everything would be complete----
    Senator Dorgan. So, it's going to be treated twice?
    Mr. Sando. Well, two different levels of treatment. That 
one Danny is explaining was chloromines and UV, and then full 
treatment would take place at Minot.
    Senator Dorgan. I understand. But, the point is, you treat 
it at one level as it's taken from the lake, and then treat it 
to drinking-water quality here in Minot, is that correct?
    Mr. Sando. Yes.
    Senator Dorgan. That's what goes out through the control 
structure to all those who are being served by NAWS?
    Mr. Sando. Right.
    Senator Dorgan. Now, let me come back to this question 
because I think I understand the pretty serious dilemma, here.
    Here's the question. As we sit here in Minot today, if we 
have a situation where we've now spent $82 million on this 
project, and it's good. The people of Kenmare are drinking good 
water and good for them. Burlington and others are going to 
drink good-quality water because we've laid the pipe. We're 
actually taking water out of the Minot system, treating it, 
from the aquifer, and moving it out. So we've spent $82 
million, $45 million Federal, $30 million city and $7 million 
State. $125 million are remaining, that's exclusive, I believe, 
of the treatment plant, I assume.
    Assuming the plant costs $15, $17 million, that might be 
$80 million short. But, $125 million is remaining to be spent 
or perhaps $200 million if you had another $80 million and you 
had to do the much higher level of treatment.
    Mr. Breitzman and I have worked with the Bureau for a long 
time, so I have some notion of timelines, and sometimes they do 
really, really well and sometimes, only rarely, would they ever 
ask for an extension of time or not meet their time deadline. 
But, I've seen that rare occasion a few times.
    I worry about whether the potential of 2 years, which I 
think is what I'm hearing, is probably a more reasonable guess. 
Assuming everything goes as you believe it should, your target 
date is to be finished December of next year. Put it out for 
comments for a couple of months. You get comments, and then the 
Bureau begins to work to evaluate the comments, respond to the 
comments, and then relate to the comments and then submit this 
as a final product.
    You know, under the best of circumstances, you're talking 
about July 2012. I would say, probably more likely toward the 
end of 2012. My guess is, between now and that moment, no one 
is going to be building an intake, or control structure, or 
treatment plant. I might be wrong about that, but you're 
certainly not going to be building a treatment plant, because 
you will not have resolved the issues of what kind of treatment 
at this point.
    For purposes of being very optimistic, it's July 2012 and 
the Court now has your product. We don't know how long the 
Court might take to evaluate that, so let's take that to the 
end of 2012. Then, all of a sudden, you have a decision from 
the Court that says, ``Here's the treatment that you have to do 
and this resolves all of the issues,'' and it rejects the 
Missouri thing as goofy and specious, at the end of 2012. Then 
you, Mr. Sando, are going to get really busy and in 5 years 
you're going to build the intake, the control structure, and 
the treatment plant, and ergo, it's done. That's 2017. That 
comes back to the question I continued to ask you, Mr. 
Zimbelman about whether those who are on the end of that 
pipeline are going to feel, between now and 2017, that there is 
a reliable and a guaranteed supply of water coming. It seems to 
me that that's at odds with the concern about the Minot 
aquifer, and whether that is capable of handling this to the 
year 2017.
    That, then, leads me to the question of why do you want to 
lay more pipe between now and 2017 or now and 2015, if we don't 
have Missouri River water to put in that pipe, at this point? 
The purpose of holding this hearing is to try to understand 
where we're going, and when we're going to get there, and when 
the people of Minot, this region, the State, and the Nation can 
expect to complete this project. The more I understand it, the 
more concerned I become about the amount of time it's going to 
take. Most of my concern deals not with the Bureau, I'm not 
suggesting that you're wearing out your shoes dragging your 
feet, but the fact that in 2002, the first court action ensued, 
and it's 8 years later and we're not anywhere near a conclusion 
in the court system. As I understand, this discussion could not 
even begin to come until the beginning, perhaps, of 2013. Can 
you tell me where I'm wrong if you think I'm wrong?
    Mr. Zimbelman. I don't think you're wrong. I think that's a 
very real possibility, and we certainly all have concerns about 
that. When you have a judge that certainly can find--there's 
always a way to hold this up, and I think that's kind of our 
feeling right now--or my feeling, personally, that you know, 
those delays can go on for as long as she wants them to go on. 
How do you deal with the Court, I think, is really, you know, 
where we're at, at this point.
    If I were--in your earlier question, if I were a smaller 
town that's using NAWS water now, I would be unsecure; I'd be 
concerned. And, certainly, I'm concerned for the city of Minot, 
when we're using our aquifer, and that valuable resource. But 
we think it's important for the region in order to for us to 
grow and work together.
    Senator Dorgan. I think that's generous of the city of 
Minot. Not only have you contributed a great deal of money to 
this, but you've also decided that you wanted to move water 
through your system to be able to benefit those smaller 
communities.
    It seems to me, however, that those communities that you 
are now hooking up with Minot water through pipe that we've 
laid with these appropriations while we're waiting, would be 
less secure if we lay pipe to a lot of other cities and put 
water in that pipe to go serve more communities. The greater 
likelihood is, if there's a shutoff of water at some point, 
here, the more communities you put on that system using Minot 
water, the more likely it is you're going to have problems, if 
this is going to take 6 or 8 more years.
    So, Mr. Sando, when you talk about wanting to get money to 
build out and lay more pipe I'm not so sure that's in Minot's 
interest--or anybody else's interest, for that matter, at this 
point.
    Mr. Sando. Okay, I'd like to try to answer--we're at the 
point we're not going to build up any additional to the 
communities, because we feel--and Minot feels--we're pretty 
stretched. So, what we're looking at is, next year going to the 
Minot Air Force Base a little north. Already, Minot is 
delivering water to Minot Air Force Base, so that is not 
additional water, it's just--be a little bit of additional 
water to the north of Minot Air Force Base, so it's not a lot 
more water.
    In fact, under contract, I think the number is like 
700,000, is that about right? And, under contract for, like, 
Berthold, Upper Souris, Kenmare, Mohall, Sherwood, Carfield, 
Burlington, and West River--it is a small percentage of what 
Minot actually uses. And the number is like 700,000. And we're 
just going to supply average--not the peak daily use, either, 
right now, because we know that, you know, there's a limited 
supply.
    And, so right now, what we've hooked up isn't a tremendous 
amount of water compared to what the use is in Minot. So, we're 
to the point, now, that the buildup is going to have to stop 
until we get things resolved with the court system, get this 
EIS completed, and get water from Lake Sakakawea. So, 
basically, the build-out is where it's at for water use.
    Senator Dorgan. Let me ask you another question. As I 
looked through this, I was surprised that the State has put 
virtually no money into this. With $82 million having been 
spent, the State's put in 8 or 9 percent of the funding. Was 
that part of the original plan; that the Federal Government 
would do 65 percent and the rest would be picked up by local, 
as opposed to, State funding?
    Mr. Sando. To answer that question, the project was 
designed to be a 65/35 percent cost-share--65 percent with the 
Federal Government, 35 percent local, and the State of North 
Dakota would provide the engineering and contract management so 
that there wasn't going to be dollars put in from the State 
side. But we have been putting money in, like you said, the 
$6.8 million.
    In fact, in this biennium, we allocated $10 million towards 
NAWS projects--State dollars, too. So originally, it wasn't 
planned to put State dollars in, but that's what it's been 
coming to.
    Senator Dorgan. You mean in the biennium ahead of us, or 
the one that we're currently in?
    Mr. Sando. No, the one that we're currently in.
    Senator Dorgan. Okay.
    Mr. Sando. There's $10 million set aside, allocated towards 
the NAWS Project.
    Senator Dorgan. Okay, so the State does have an additional 
$10 million.
    Mr. Sando. Right. So, we've spent $6.8 million so far, the 
State, and we allocated $10 million. I think we spent $800,000 
of that $10 million this biennium, so there's still $9.2 
million available for the NAWS Project, for dealing with the 
intake, or going to the Minot Air Force Base, or whatever we 
build next.
    Senator Dorgan. Is there a lengthier process that will be 
required to build the much larger treatment option than the 
smaller option? I mean, are we talking about a substantial 
difference in time required to construct the treatment plant?
    Mr. Breitzman. I don't know if I have a very precise 
answer. I would assume it would be a lengthier process, yes. It 
would be a more sophisticated treatment plant. So, the 
difference would be between a chlorination system and building 
a microfiltration plant.
    Senator Dorgan. All right. Let me ask a question about a 
meeting I held here almost 2 years ago, I think it was. I lose 
track of time, it moves so quickly sometimes. We had a meeting 
in this room at a roundtable and talked about it, and there was 
a lot of discussion then about discussions with Canada outside 
of the court system to resolve these issues. We were there and 
when I say ``we,'' I mean people from North Dakota had been 
there. I don't know whether the Canadians were there or not, 
but discussions were moving on and there were hopeful signs 
that progress was being made on various issues. You were in 
that meeting. Are there more discussions? What happened in 
those discussions? I thought there was such promise and such 
optimism the discussions were taking place. Anybody have a 
response to that?
    Mr. Breitzman. I can tell you that we've not had those 
discussions as of late. We were having good discussions. And 
they were both about the NAWS Project, and at that time, we 
were working on the Red River Valley water supply system EIS, 
and we were talking to the Canadians about those. Specifically 
on NAWS I met with the Canadians and Todd's predecessor, Mr. 
Frink, in the State Water Commission building. And I believe 
that was the last conversation that we've had. And it was a 
very dissatisfying conversation. And it seemed that we thought 
we had set some goals that they had agreed to that we could 
achieve and it appears those were wavering a little bit, and 
the discussions just have kind of broken down from there.
    Senator Dorgan. Does anyone want to add anything to that?
    Mr. Cockrell, do you have any questions?
    Mr. Cockrell. You talked about some upgrades that need to 
be done to the Minot water plant. The question I have is, we 
don't know what the Court's going to rule, but if you build 
this more expensive water treatment plant at Lake Sakakawea, 
are those upgrades to the Minot plant still necessary, or can 
they be postponed? In other words, are we going to build them 
and then have that plant taken offline once the plant at Lake 
Sakakawea is completed?
    Mr. Zimbelman. I'll try to answer that. I know that our 
concern is that we will not take our water treatment plant 
offline. We don't think we can afford to do that, because you 
take a water treatment plant offline, it doesn't take long for 
it to rust up and have all kinds of problems. So, we would keep 
our water treatment plant online, as far as the city is 
concerned.
    Mr. Cockrell. Are you going to be blending water at that 
point, or will it be strictly just the Missouri River water? 
Will you be re-treating the treated water? Do you know exactly 
what will be done at that point?
    Mr. Sando. To try to answer that question, the city of 
Minot would really like to have backup water supply, too. So, 
if you do get Lake Sakakawea water, Missouri River water, and 
then there's issues, they still could go to their groundwater, 
and so that's why they want to keep their treatment plant in 
Minot functional, and so it's there in case there is some times 
of need.
    So, if they go to a higher level of treatment, right now 
the selected alternative is an $18 million alternative, which 
is chloromines and UV. If they go to full treatment, there 
might be a need for two treatment plants--one down there and 
one at Minot. I don't--I mean, that's Minot's decision, if they 
want to--you know, what they want to do with their treatment 
plant. But I'm sure what you're hearing is they want to keep 
their treatment plant.
    So, if we go to a higher level of treatment, we might have 
two full treatment plants, that's the problem. We'd much rather 
see an $18 million treatment plant that deals with biota, 
that's handled with chloromines and UV, not to go to full 
filtration down at the lake.
    Senator Dorgan. Mr. Schardin.
    Mr. Schardin. I want to add a little bit to the timeline 
portion of the questioning. The Senator laid out, very well, 
the possibility of getting the major features of this project 
done by 2017. It's also a best-case scenario. It assumes that 
all of the funding would be in place, and assumes that the 
supplemental EIS is done in a very timely way, and that the 
judge accepts what's in it, also in a very timely way.
    In the ruling that she gave in March, and any other 
discussions and subsequent filings, what kind of indication 
have you gotten as to what the judge will accept in the 
supplemental EIS, as to whether she will accept the conclusions 
therein, what she's looking for?
    Mr. Breitzman. I don't know that I can--I certainly can't 
speak to what the judge will accept. I don't know. I can tell 
you this. We're opening the scoping of this supplemental EIS 
up, wider than, perhaps, we might have, given her last court 
order, which took us by surprise, frankly. And we're going to 
go back and look really hard at the 2001 EA, the environmental 
assessment, which is still an effective document. That's the 
environmental document that covers all of the construction work 
the State's been doing. So, we're going to look at that, look 
at the 2008 EIS to see if there is anything we can update. 
There are certain things that--through the course of time--come 
to be issues: climate change is one. That's, since 2001, that's 
a real issue that needs to be addressed, now, in more detail 
than we've done in the past. We're going to be looking at all 
of those things. Not sure what she's looking for, but we're 
trying to cover all of the bases.
    Mr. Schardin. But she was not clear, in her written 
statements, in terms of what she's looking for, correct? I 
mean, you can't read her mind, obviously, but----
    Mr. Breitzman. Well, you know, with regard to this last 
order, she was pretty clear that she wants us to take a harder 
look at what the consequences would be if there's a biota 
transfer into Hudson Bay Basin, particularly on the Canadian 
side of the border.
    Mr. Schardin. But there is no good indication as to what 
she thinks is significant?
    Mr. Breitzman. What the level of that analysis would be.
    Mr. Schardin. Okay.
    There's another question, of course, as to the Canadian 
side of this suit. If you were to say, today, ``Okay, we'll 
build the $90 million plant, treatment plant,'' do we know that 
the judge would accept that and that the Canadians would accept 
that? I suppose it would have to be the Canadians first, would 
they accept that and say, ``Okay, we drop our suit, we're 
satisfied with that.''
    Mr. Breitzman. Actually, the judge really doesn't rule on 
the treatment. We wouldn't expect her order to say, ``Okay, I'm 
picking this alternative, you do that one.'' Her role, here, is 
to make sure that we are procedurally correct.
    Mr. Schardin. Right.
    Mr. Breitzman. And I think if we get through that loop--I 
don't know. But, I guess I would sit here now and say, I would 
fully expect Manitoba to continue to challenge.
    Senator Dorgan. You're saying that, even if we were to do 
the highest level of treatment, you expect that Manitoba would 
continue to challenge that?
    Mr. Breitzman. I do. I don't think that's out of the--in 
the realm of impossibility.
    Senator Dorgan. You know, I don't think any of us know what 
might or might not happen, we're just prognosticating in 
response to questions. On the other hand, will the Canadians 
take yes for an answer, if we say that we will treat to the 
highest level? You're talking about another $80 million, 
perhaps, for that more expensive treatment plant. Then, as I 
understand it, we'd run the water through that, run it up to 
Minot, and run it through Minot's treatment plant, which 
produces the water that the folks in Minot drink, right? 
Somehow, it is probably not a surprise in the year 2010 that 
the Canadians are objecting. They were objecting in 2002, we've 
dealt with the Canadians on Devil's Lake, we've dealt with the 
Canadians on a lot of other issues, they have a right to 
object, and they have a right to use our court system to do so. 
We have a Boundary Waters Treaty, and of course, they would 
like to put some of these issues into a JTC process, which 
means that 50 years from now, somebody might see that they did 
a study but they'll never get a conclusion.
    My great concern is that we're in a situation at the moment 
where we probably have to stop laying pipe and find a way to 
make progress, getting the right water in the pipe to get out 
to those communities that now have a pipe, and now have the 
capability of getting distributed water. Mr. Mayor I assume, in 
response to your duties to the people of Minot, that you're 
going to have to watch very closely what that aquifer is doing, 
and therefore what your needs are in this city. This is a city 
that's growing very rapidly, at the moment. Your first 
responsibility is to the city, to use that water treatment 
plant that you have here, and the water in the aquifer, here, 
for the benefit of the people of Minot.
    So, what I have concluded is troubling to me in the sense 
that we are putting our head down and just continuing to build 
with the very likely prospect, if you just play the hand out, 
here, that even if you got a green light, and a yes from the 
court, that it is now 2017, when at which point this treatment 
plant that is built, Missouri water is treated through the 
plant, and is now beginning to flow. The question is, will 
those communities now on that system still be getting water in 
2017 from the Minot aquifer. Which, I think none of us know 
that that could be the case.
    So, I have earmarked one-half of the $45 million that we've 
put in for Federal funding in the last 3 years. This project is 
a good project, it needs to be completed and built. The promise 
of moving good-quality Missouri River water around this State 
for beneficial use is a promise we need to keep.
    Now, we've got the Bureau issue, and we've got the EIS, and 
we've got the time for construction in front of us. The whole 
timeline is a very troubling timeline to me.
    Mr. Breitzman, is there any reason that the Bureau needs to 
take a year and a quarter to finish the draft of the EIS? I 
mean, isn't there a way for you all to evaluate what you 
believe the court needs? Having done the EIS, first in 2001, 
and then in 2008, why on earth would you need another 1\1/4\ 
years to go back and do something the judge says that she needs 
additional information about?
    Mr. Breitzman. Well, part of it comes back to the question 
Mr. Schardin asked, and that is that the scope of this 
consequence analysis. That's a question that's really in the 
air, and can go a lot of places. When we talk about, what's the 
potential impact to Canada of an invasive species? We can do an 
analysis this big, or we can do an analysis this big.
    And, I think a great part of this time is to determine 
exactly what your question was--what do we think is most 
acceptable to the court? What's an appropriate standard, here? 
And so we are doing something different on this EIS than we've 
done in the past, and we're looking to hire a consulting firm 
that's had some experience in dealing with issues like this, 
and getting them on board, getting them up to speed, letting 
them help us scope out this consequence analysis.
    And the contract--our contracting process--onto what we 
think it would take to do that analysis, and we think that--
this is an appropriate amount of time.
    Senator Dorgan. Mr. Breitzman, I think in the last 30 years 
that I have served in Congress, I have heard so much and so 
often about the issue of biota transfer, and its impact on Lake 
Winnipeg, and its impact on the Canadians that I assume that's 
been studied to death in a number of different venues, has it 
not? That issue has been attached to a number of issues, here 
in North Dakota, and the Canadians have engaged on it in a 
number of different occasions so has that issue not been 
studied to death?
    Mr. Breitzman. There's a lot there--there's a lot of 
information available, but it keeps changing. And just as the 
treatment technologies change, maybe species information 
changes, as well. And so, yes, it's been studied a great deal 
and it's probably a matter of assimilating the right 
information and putting it in a scope that is satisfactory to 
the court.
    I don't think--I would add onto that--that we're going to 
have a lot of people going out and taking samples in Canada or 
in the Missouri River or anything like that. It's a matter of 
pulling together information that's available and putting it in 
a form that we think is acceptable.
    Senator Dorgan. It seems to me that this project is a 
prisoner of a timeline that doesn't add up, at the moment. It 
doesn't mean the project shouldn't be done or won't be done 
someday, but it just seems to me that this timeline doesn't add 
up, in terms of Minot's potential vulnerability for your water 
supply, and the ambition of putting Minot water in pipes in the 
meantime.
    Mr. Mayor, in your testimony, you talked about the 2 years 
plus 2 years, which gets you to the end of 2012, I believe. 
We're talking about a timeline, the earliest of which, would 
probably get you out to 2017, in terms of having the structures 
built and Missouri River water flowing through those pipes. I 
know you don't have a wand to fix it, nor do I, but we 
obviously have to understand the circumstances, and then plan 
for and build appropriately to the circumstances. That's why I 
wanted to have a hearing so we understand where we are, where 
we are headed, and what the dilemmas are that we can address 
and deal with.
    Mr. Ness.
    Mr. Ness. Yes, we have a--we talked--I was told about a 
communication between the Bureau and Canada, how all of a 
sudden, you know, it--one time you didn't have a good 
communication, you said. And nothing's ever happened since? To 
me, it should be pretty much common sense that we get together 
with them and figure it out, then always go through the court 
systems. But, I'm sure it has to go through the court system. 
But, I think communication is something that should be looked 
at, a lot more, in my personal. Because it is very--we're very 
concerned. And if this doesn't get cured, I don't know. We're 
looking at different options.
    But I just was really worried about this, when he talked 
about communication, and then it broke down. We should try 
again.
    Senator Dorgan. Mr. Breitzman.
    Mr. Breitzman. It's much more difficult to have those 
discussions once we're in active litigation. You know, I think 
before, we were working on this, on another Environmental 
Impact Statement, for the Red River Valley, that gave us a 
venue to meet with the Canadians and have technical discussions 
that are much more difficult to have, now that we're in 
litigation. And, again, I just say that it's really tough.
    And, if I might, Senator, I just want to clear up, or get 
on the record something I said about what I think Manitoba 
might do at the conclusion of our environmental document. The 
statements they've made, more and more--I guess I said what I 
did because they lead me to believe that there's really a 
feeling that there should be zero risk to Manitoba for a 
project that's being constructed in North Dakota. And with the 
very best--with the $120 million treatment plant, we can never 
attain zero. And that's why I said I think that they would 
continue to question what we come up with.
    Senator Dorgan. I think it's important for the Canadians to 
understand, and I hope they do understand that there's no one 
that is involved, here in North Dakota, myself, any of you at 
the table, or anybody else involved in water projects that ever 
wishes to visit trouble on the Canadians. We're not interested 
in having species move to the Canadian watershed that would be 
troublesome to them. We have no interest in, and will not 
violate the Canadian boundary, U.S./Canada Boundary Waters 
Treaty. It is not in our interest, ever, to want to visit 
problems on the Canadians. So, we want to do all that we can to 
address problems.
    We also don't want this to take forever, and we don't want 
to be forever challenged just because somebody has the right to 
challenge. Our goal is to build a project here to benefit North 
Dakota in a region of North Dakota that needs that benefit, and 
do it without, in any way, causing any problems for the 
Canadians. That's our goal. I can't tell you the number of 
times we have reiterated to the Canadians: We intend to abide 
by the U.S./Canada Boundary Waters Treaty. We will always 
intend to do that, and not just intend, but we will do that.
    So, it seems to me that we need to re-engage in 
consultations with the Canadians and I'm not quite sure the 
structure of that at the moment, but that seems pretty clear. 
The fact is there are a whole lot of lawsuits that are settled 
before the conclusion of the suit, just by negotiations of the 
parties.
    As I said a moment ago, I think we're in a situation where 
the timeline doesn't add up with respect to the purposes and 
what we want to accomplish in that timeline. We have to 
recognize that, and we have to address that with what we want 
to do in terms of build-out and progress.
    Mr. Mayor, you've asked the people of this community to 
spend a lot of money to build this project. They've owned up to 
that and committed a substantial amount of money to the 
project. I know that they want, I want, and everyone else wants 
to see us get to the finish line as quickly as is possible. I 
think we're past the time now where we put our head down and 
just keep laying pipe, despite the fact that the court says we 
can. Laying more pipe and serving more communities will put 
those communities already served in jeopardy, if the Minot 
aquifer does not support the additional communities on the 
pipeline.
    So, we need to get to the finish line as quickly as we can. 
I think from this discussion, I confess I'm a bit more troubled 
at the end of the hearing than when I started the hearing, as a 
result of a timeline that I think doesn't fit. This is like 
having pieces to a puzzle that never quite fit together. I 
think we are all committed to completing a project. This is not 
a project that can be, or should be, or will be abandoned. It 
is enormously frustrating to see, 8 years after the first court 
suit was filed by the Canadians, 8 years later, we now look at 
many more years in order to resolve the issue.
    Does anyone have any other questions? I would like to 
submit a list of additional questions if we have some, 
following the hearing. And this hearing will then represent a 
formal record of where we see things in August 2010. My hope is 
that we are able to find ways to make more progress than we 
have been able to describe today, because I think people of 
Minot and this region well deserve that.
    The hearing record will remain open until August 27. If 
there are others in North Dakota or others who hear of this 
hearing and wish to submit comments, we would invite anyone who 
wishes to submit comments to do so. Outside witnesses should 
provide comments to us via e-mail before August 27, and my 
staff will be available to provide e-mail addresses.

                         CONCLUSION OF HEARING

    I want to thank the witnesses who have taken time out of 
your afternoon to be with us. Mr. Ness and Mr. Schaefer, you 
both described the delight of an area that finally gets good-
quality, fresh water. Something we almost take for granted 
every day in much of the country. That illuminates for us what 
can be the case in a significant area here in a project that 
will be a good project when completed. Not if ever, but when 
completed. I hope that, perhaps, from this hearing we can spur 
just a bit more progress. I personally believe we're going to 
have to spur some additional consultations with Canada, as 
well.
    Thank you all for being here, this hearing is recessed.
    [Whereupon, at 4 p.m., Wednesday, August 11, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following testimonies were received by 
the Subcommittee on Energy and Water Development subsequent to 
the hearing for inclusion in the record.]
        Prepared Statement of Robert Sando, Minot, North Dakota
    I came away from the recent meeting held in the Minot City Council 
Chambers regarding water issues in North Dakota--specifically NAWS--
very much disillusioned. Senator Dorgan chaired the meeting with you 
and one of his aids seated on either side of him.
    I am very concerned with Senator Dorgan's impending retirement from 
the Senate that this project will never be completed. A pipe line going 
``no where'' with millions of dollars of Minot and Federal money 
wasted.
    We have a judge, U.S. District Judge Rosemary Collyer, that single 
handedly has stalled the project and probably will end up killing it. 
One could easily question her ability to serve in such a position. In 
her opinion/commentary on the project she is credited with making 
reference to a mountain range between Lake Sakakawea and the city of 
Minot. Hell, North Dakota doesn't even have a mountain range.
    Either she or the Canadians are also credited with saying if the 
pipe line between the pump station (not even built yet) and Minot 
should break, ``a flow of water comparable to that which goes over 
Niagara Falls would occur.'' These people are dumber than a box of 
rocks.
    As for the Missouri lawsuit, NAWS is projected to use a fraction of 
the water promised North Dakota when we agreed to allow the Garrison 
Dam to be built here and flood thousands of acres of good farm land. A 
reputable judge would have dismissed that lawsuit the same day it was 
put on her desk.
    As for the Canadians they will and have protested nearly every 
proposed project in North Dakota and for that matter the entire United 
States. At the meeting testimony was given stating two Canadian Border 
Stations wanted access to NAWS water and that Canadian citizens have 
requested access to the water as well. Yet, their provincial leadership 
continues to oppose the project.
    If NAWS wasn't so important to this entire region, one could easily 
think of the legal process as one very big bad joke.
    Senator Dorgan hit the nail on the head with his observations/
concerns of Minot adding community after community to its (Minot's) 
water supply in the name of NAWS. Water may never come from Sakakawea. 
If water doesn't come from Sakakawea the day will come when Minot will 
have to shut the spigot off on these communities. I would hate to be a 
Minot Council member when the lynch mob comes to town on their way to 
Bismarck and the State Water Department.
    A very concerned taxpayer.
                                 ______
                                 
      Prepared Statement of Kenneth Rogers, Maxbass, North Dakota
    My name is Kenneth Rogers. I am a life long resident of Bottineau 
county and live in the NAWS area. I am a director on the Garrison 
Diversion Conservancy District, All Seasons Water Users District, North 
Dakota Water Users, and the NAWS advisory committee.
    The Northwest Area Waster Supply is a MUST. It is absolutely 
essential to the future of this area of the State of North Dakota, 
especially in retaining our youth and having an economic future. It is 
a sin that this project has met so many delays and funding. This 
project in the original plan was to be completed next year. Now we are 
talking another 10 years. This project needs to be on a 911 emergency 
type schedule. It should not take a lifetime to complete a simple water 
project like this with life's most basic necessity, good water.
    The Canadian objections are ridiculous. Biota transfer in treated 
water is so small compared to it happing through natural means such as 
wild life, fishing boats, human movement between the two basins, as 
well as agricultural means. Inter basin transfer of water between the 
Missouri River Basin and the Hudson Bay Basin already exists in the 
Milk river region of Montana and Canada. Interbasin transfer of water 
is common in western Canada. The Canadians have a better chance of 
winning the lottery than biota transfer through treated water. It 
should also be noted that only a portion of all the water to be used by 
NAWS would actually make its way back into the Hudson Bay drainage 
basin. My guess is less than 50 percent. We have numerous other water 
problems that are of immediate concern for the Hudson Bay basin such as 
nutrient loading, invasive species and others. We need to be working on 
these real problems not theoretical what if problems of biota transfer 
through treated water. Their delays are continually costing all of us 
more money in construction costs. It is time for this to end.
    In conclusion, we have lost 500,000 acres of prime North Dakota 
land for flood control with the promise of irrigation. The irrigation 
project now is minimal and we are promised Municipal, Rural and 
Industrial water which is what NAWS is under. We have provided billions 
of dollars in flood control to the States of Missouri, Nebraska and 
others. Now is the time for the U.S. Government to keep its promises. 
NAWS is a MUST.
    Thank you.

                                   - 

</pre></body></html>
